APPENDIX TABLE OF CONTENTS
Kollaritsch v. Michigan State Univ. Bd. of Trs.,
Nos. 17-2445/18-1715 (6th Cir. Dec. 12,
2019) (opinion reversing district court's
denial of motion to dismiss and remanding
for entry of judgment)
1a
Kollaritsch v. Michigan State Univ. Bd. of Trs.,
No. 1:15-cv-1191 (W.D. Mich. Jan. 26, 2018)
(order granting motion for certificate of
appealability for interlocutory appeal)
32a
Kollaritsch v. Michigan State Univ. Bd. of Trs.,
No. 1:15-cv-1191 (W.D. Mich. Nov. 2, 2017)
(opinion and order granting in part and
denying in part motion to dismiss)
41a
Kollaritsch v. Michigan State Univ. Bd. of Trs.,
Nos. 17-2445/18-1715 (6th Cir. Feb. 3, 2020)
(order denying petition for rehearing en
banc)
74a
First Amended Complaint (Feb. 18, 2016)

76a

RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0293p.06

.

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

EMILY KOLLARITSCH, et Al.,
Plaintiffs-Appellees,

1
> Nos. 17-2445/
18-1715

v.
MICHIGAN STATE UNIVERSITY BOARD OF
TRUSTEES; DENISE MAYBANK, in her individual and official capacity as Vice President for Student Affairs,
Defendants-Appellants.

Appeal from the United States District Court
for the Western District of Michigan at Grand Rapids.
No. 1:15-cv-01191—Paul Lewis Maloney, District
Judge.
Aigued: March 20, 2019
Decided and Filed: December 12, 2019
Before: BATCHELDER, ROGERS, and THAPAR,
Circuit Judges.

2a
COUNSEL
ARGUED: Michael E. Baughman, PEPPER HAMILTON LLP, Philadelphia, Pennsylvania, for Appellants. Alexander S. Zalkin, THE ZALKIN LAW FIRM,
P.C., San Diego, California, for Appellees. ON BRIEF:
Michael E. Baughman, Hedya Aryani, PEPPER HAMILTON LLP, Philadelphia, Pennsylvania, for Appellants. Alexander S. Zalkin, THE ZALKIN LAW FIRM,
P.C., San Diego, California, for Appellees. Seanna R.
Brown, BAKER & HOSTETLER LLP, New York, New
York, for Amicus Curiae.
BATCHELDER, J., delivered the opinion of the
court in which THAPAR, J., joined, and ROGERS, J.,
joined in part. THAPAR, J. (pp. 16-19), delivered a
separate concurring opinion. ROGERS, J., (pg. 20), delivered a separate opinion concurring in part and in
the result.

A

3a

OPINION

ALICE M. BATCHELDER, Circuit Judge. A victim
of "student-on-student sexual harassment" has a private cause of action against the school under Title IX
of the Education Amendments of 1972 (Title IX), 86
Stat. 373, codified as 20 U.S.C. § 1681, et seq., based
on the formula first set out in Davis v. Monroe County
Board of Education, 526 U.S. 629 (1999). Under that
formula, the sexual harassment must meet a certain
standard and the evidence must satisfy the elements
for an intentional tort. Our particular focUs in this appeal is on the requirements that the harassment must
be "pervasive" and the school's response must "cause"
the injury. In short, we hold that a student-victim
plaintiff must plead, and ultimately prove, that the
school had actual knowledge of actionable sexual harassment and that the school's deliberate indifference
to it resulted in further actionable sexual harassment
against the student-victim, which caused the Title IX
injuries. A student-victim's subjective dissatisfaction
with the school's response is immaterial to whether
the school's response caused the claimed Title IX vio7
lation. Because none of the plaintiffs in this case suffered any actionable sexual harassment after the
school's response, they did not suffer "pervaSive" sexual harassment as set out in Davis and they cannot
meet the causation element. We also find that the individual defendant is entitled to qualified immunity.
Altogether, we REVERSE the district court's order

4a
and REMAND for entry of a final judgment dismissing
these claims
I.
This lawsuit stems from four student-on-student
sexual assaults at Michigan State University. In each
case, a male student sexually assaulted a female student and she reported it to campus police and to the
proper administrative authorities, which undertook a
response beginning with an investigation. The plaintiffs are the female student victims: Emily Kollaritsch,
Shayna Gross, Jane Roe 1, and Jane Roe 2. But this
lawsuit is not about the sexual assaults, nor is it directed at the perpetrators; it is directed at the University administration and its response. The plaintiffs
contend that the administration's response was inadequate, caused them physical and emotional harm,
and consequently denied them educational opportunities. They sued the Michigan State University Board
of Trustees (hereinafter "MSU") and Vice President for
Student Affairs Denise Maybank, among several others, claiming violations of Title IX, Due Process and
Equal Protection under 42 U.S.C. § 1983, and Michigan law.
The defendants moved to dismiss the claims pursuant to Federal Rule of Civil Procedure 12(b)(6). Following a hearing and the plaintiffs' withdrawal of several claims, the district court dismissed all but four
claims: the claims by Kollaritsch, Gross, and Roe 1
that MSU violated Title IX, and the § 1983 claim by
Gross that Maybank violated her right to equal protection. See Kollaritsch v. Mich. State Univ. Bd. of Tr.,
298 F. Supp. 3d 1089, 1096 (W.D. Mich. 2017).

5a
Maybank filed an interlocutory appeal of the district court's denial of her assertion of qualified immunity. See Mitchell v. Forsyth, 472 U.S. 511, 530 (1985)
(providing a defendant the right to an interlocutory
appeal of the "denial of a claim of qualified immunity,
to the extent that it turns on an issue of law"). Meanwhile, MSU moved the district court to certify its order
for interlocutory appeal pursuant to 28 U.S.C.
§ 1292(b) (providing for interlocutory appeal of qualifying issues at the courts' discretion) and, upon certification, moved this court to permit the appeal. We
granted the motion, explaining that "whether a plaintiff must plead further acts of discrimination to allege
deliberate indifference to peer-on-peer harassment
under Title IX" is a controlling question of law warranting immediate appeal. We consolidated the appeals.
From a procedural posture, a § 1292(b) interlocutory appeal such as this one is unusual in that it arises
from a denial rather than a grant of a Rule 12(b)(6)
motion to dismiss the complaint, so "we are not governed by the Rule 12(b)(6) standard of review" for
granted motions. Foster Wheeler Energy Corp. v.
Metro. Knox Solid Waste Auth., Inc., 970 F.2d 199, 202
(6th Cir. 1992). This is a review "limited to pure questions of law." Id.; but see Yamaha Motor Corp., U.S.A.
v. Calhoun, 516 U.S. 199, 205 (1996) (explaining that
we are not limited to only the specifically certified
question but may "address any issue fairly included
within the certified order"). We do not make any determination of any facts, even by implication; the analyses and decisions herein leave all questions of fact

6a
unresolved and all allegations still merely alleged. See
Sheet Metal Emp'rs Indus. v. Absolut Balancing Co.,
830 F.3d 358, 361 (6th Cir. 2016). This same limitation
applies to the facts accepted as true for purposes of our
deciding the qualified-immunity claim.
II.
By design and effect, the Davis Court's Title IX private cause of action against a school for its response to
student-on-student sexual harassment is a "high
standard" that applies only "in certain limited circumstances." Davis, 526 U.S. at 643. The school is
"properly held liable in damages only where [it is] deliberately indifferent to sexual harassment, of which
[it] has actual knowledge, that is so severe, pervasive,
and objectively offensive that it can be said to deprive
the victims of access to the educational opportunities
or benefits provided by the school." Id. at 650.
Ordinarily, we state the Davis standard as a threeelement test and ordinarily that is enough.' But, even
without the careful parsing that follows, the Davis formula clearly has two separate components, comprising separate-but-related torts by separate-and-unrelated tortfeasors: (1) "actionable harassment" by a student, id. at 651-52; and (2) a deliberate-indifference
intentional tort by the school, id at 643. The critical
1 See, e.g., Gordon v. Traverse City Area Pub. Sch., 686 F. App'x
315, 323 (6th Cir. 2017); Stiles ex rel. D.S. v. Grainger Cty., 819
F.3d 834, 848 (6th Cir. 2016); Pahssen v. Merrill Cmty. Sch. Dist.,
668 F.3d 356, 362 (6th Cir. 2012); Patterson v. Hudson Area Sch.,
551 F.3d 438, 444-45 (6th Cir. 2009); Vance v. Spencer Cty. Pub.
Sch. Dist., 231 F.3d 253, 258-59 (6th Cir. 2000); Soper v. Hoben,
195 F.3d 845, 854 (6th Cir. 1999).

7a
point here is that the Davis formulation requires that
the school had actual knowledge of some actionable
sexual harassment and that the school's deliberate indifference to it resulted in further actionable harassment of the student-victim.
Actionable Sexual Harassment. We can conservatively describe "harassment," without additional qualification, as some type of aggressive and antagonistic
behavior that, from the victim's perspective, is uninvited, unwanted, and non-consensual. For student-onstudent sexual harassment to be actionable under Davis's Title IX private:cause-of-action formulation, it
must be (a) severe, (a) pervasive, and (c) objectively offensive. Id. at 651; see, e.g, Pahssen v. Merrill Cmty.
Sch. Dist., 668 F.3d 356, 363 (6th Cir. 2012) (holding
that harassment comprising a shove into a locker, an
"obscene sexual gesture," and a "request for oral sex"
did "not rise to the level of severe, pervasive, and objectively offensive conduct" (quotation marks omitted)).
"Severe" means something more than juSt juvenile
behavior among students, even behavior that is antagonistic, non-consensual, and crass. The Davis Court
made an explicit admonishment that "simple acts of
teasing and name-calling" are not enough; "even
where these comments target differences in gender,"
Davis, 526 U.S. at 651; 652 ("It is not enough to show
. . that a student has been teased or called offensive

8a
names." (quotation marks and editorial marks omitted)).2
"Pervasive" means "systemic" or "widespread," id.
at 652-53, but for our purposes, it also means multiple
incidents of harassment; one incident of harassment is
not enough. Id. (explaining that this cause of action
does not cover "claims of official indifference to a single
instance of one-on-one peer harassment"). The Davis
Court hypothesized that a single incident could be sufficiently severe that it would result in the articulated
injury—and we do not doubt that a sexual assault
would be such a severe incident—but the Court held
that a single incident would nonetheless fall short of
Title IX's requirement of "systemic" harassment. As
the Court put it:
Although, in theory, a single instance of sufficiently severe one-on-one peer harassment
could be said to have such an effect, we think it
unlikely that Congress would have thought
such behavior sufficient to rise to this level in
light of the inevitability of student misconduct
and the amount of litigation that would be invited by entertaining claims of official indifference to a single instance of one-on-one peer harassment. By limiting private damages actions
to cases having a systemic effect on educational
We do not imply that "severe" requires physical contact, or that
Davis holds that it does. See Davis, 526 U.S. at 653 (describing
the harassment in that case). Obviously, verbal harassment can
exceed teasing and name-calling, and the severity of harassment
on social media is virtually boundless. But we have no such scenario in this case.
2

9a
programs or activities, we reconcile the general
principle that Title IX prohibits official indifference to known peer sexual harassment with the
practical realities of responding to student behavior, realities that Congress could not have
meant to be ignored.
Id. at 652-53 (emphasis added). The Davis dissent offered its view of this passage, which the majority did
not dispute: "The majority appears to intend [the pervasiveness] requirement to do no more than exclude
the possibility that a single act of harassment perpetrated by one student on one other student can form
the basis for an actionable claim." Id. at 677 (Kennedy,
J., dissenting). That a single incident is insufficient on
its own to state a claim correspondingly adds further
support to the requirement that at least one more (further) incident of harassment, after the school has actual knowledge and implements a response, is necessary to state a claim.3
"Objectively offensive" means behavior that would
be offensive to a reasonable person under the circumstances, not merely offensive to the victim, personally
or subjectively. Id. at 651. "Whether gender-oriented
conduct rises to the level of actionable harassment

In Vance v. Spencer County Public School District, 231 F.3d 253,
259 n.4 (6th Cir. 2000), we mistakenly opined that a single incident of sexual harassment could satisfy a Title IX claim. But the
Vance plaintiff had presented several instances of severe and pervasive sexual harassment, id., making the assertion dicta, so we
are not bound by it. Regardless, Davis holds that a single incident
cannot constitute pervasive harassment under Title IX.
3

10a
thus depends on a constellation of surrounding circumstances, expectations, and relationships, including, but not limited to, the ages of the harasser and
the victim and the number of individuals involved." Id.
(quotation marks omitted). The victim's perceptions
are not determinative. "Indeed, the [Davis majority]
. . . suggests that the 'objective offensiveness' of a comment is to be judged by reference to a reasonable child
at whom the comments were aimed." Id. at 678 (Kennedy, J., dissenting).
Deliberate Indifference Intentional Tort. Even upon
establishing actionable student-on-student harassment, a plaintiff must also plead and prove four elements of a deliberate-indifference-based intentional
tort: (1) knowledge, (2) an act, (3) injury, and (4) causation.
"Knowledge" means that the defendant school had
"actual knowledge" of an incident of actionable sexual
harassment that prompted or should have prompted a
response. Id. at 650; 642 (rejecting an imputedknowledge standard under agency principles or a
should-have-known standard based in negligence); see
McCoy v. Bd. of Educ.; 515 F. App'x 387, 392 (6th Cir.
2013) ("[T]here is a connection between what school
officials know and whether their response is clearly
unreasonable."). Ordinarily, "deliberate indifference"
means that the defendant both knew and consciously
disregarded the known risk to the victim. See Bd. of
Cty. Comm'rs v. Brown, 520 U.S. 397, 410 (1997).
An "Act" means a response by the school that was
"clearly unreasonable in light of the known circumstances," Davis, 526 U.S. at 648, thus demonstrating

11a
the school's deliberate indifference to the foreseeable
possibility of further actionable harassment of the victim. Id. at 643 ("Deliberate indifference makes sense
as a theory of direct liability under Title IX only where
the [school] has some control over the alleged harassment . . . [and] authority to take remedial action."); but
see id. at 667 (Kennedy, J., dissenting) ("Yet the majority's holding would appear to apply with equal force
to universities, which do not exercise custodial and tutelary power over their adult students."). Because the
further harassment must be inflicted against the same
victim, the plaintiff "cannot . . . premise the [further
harassment] element of her Title IX claim on conduct
[by the perpetrator] directed at third parties." Pahssen, 668 F.3d at 363;' see also Patterson, v. Hudson,
Area Sch., 551 F.3d 438, 452 (6th Cir. 2009) (Vinson,
J., dissenting) ("Obviously, the school district is not responsible for failing to stop harassment of which it was
not made aware, nor can it be held responsible for failing to punish harassment by unknown individuals.").
"Injury"in this Title IX context means the deprivation of "access to the educational opportunities or benefits provided by the school," Davis, 526 U.S. at 650,
which the fifth-grade victim in Davis described as her
inability "to concentrate on her studies" (causing her
grades to deteriorate), her fear of attending school
(telling her mother "at one point ; . . that she didn't
know how much longer she could keep [the peipetrator] off her"), and eventually a suicide note, id. at 634
(quotation marks, editorial marks, and citations omitted). See also Vance v. Spencer Cty. Pub. Sch. Dist.,

12a
231 F.3d 253, 259 (6th Cir. 2000) (describing the victim's injuries as her having to "complet[e] her studies
at home" and her deteriorating grades due to her being
"diagnosed with depression"). Emotional harm standing alone is not a redressable Title IX injury.
"Causation" means the "Act" caused the "Injury,"
such that the injury is attributable to the post-actualknowledge further harassment, which would not have
happened but for the clear unreasonableness of the
school's response. Davis, 526 U.S. at 644. Importantly,
Davis does not link the deliberate indifference directly
to the injury (i.e., it does not speak of subjecting students to injury); Davis requires a showing that the
school's "deliberate indifference `subject[ed]' its students to harassment," necessarily meaning further actionable harassment. Id. (emphasis added); see also
Thompson v. Ohio State Univ., 639 F. App'x 333, 34344 (6th Cir. 2016) (relying on further harassment in
finding that "Thompson did not raise any further harassment or discrimination with OSU's HR office, nor
did OSU have any other reason to believe that its efforts to remediate were ineffective or disproportionate" (quotation and editorial marks omitted)). But the
occurrence of further harassment is not enough by itself; the response's unreasonableness must have
caused the further harassment. Stiles ex rel. D.S. v.
Grainger Cty., 819 F.3d 834, 851 (6th Cir. 2016) ("Although the school's efforts did not end [the victim's]
problems, Title IX does not require school districts to
eliminate peer harassment."). The school's response
must be clearly unreasonable and lead to further harassment. But the critical point is that the response

13a
must bring about or fail to protect against the further
harassment, which the Court stated as:- "[T]he deliberate indifference must, at a minimum, cause students
to undergo harassment or make them liable or vulnerable to it." Davis, 526 U.S. at 645 (quotation marks,
editorial marks, and citations omitted).
The plaintiffs contend that the isolated phrase
make them vulnerable means that post-actualknowledge further harassment is not necessary—that
vulnerability alone is its own causal connection between the Act and the Injury. They point to Davis's
causation statement that "the deliberate indifference
must, at a minimum, [1] cause students to undergo
harassment or [2] makes them liable or vulnerable to
it," id. (emphasis added), from which they argue: this
statement poses two alternatives (cause or make vulnerable); the first (cause) clearly requires some further harassment; therefore, the second must not require further harassment or else it would be redundant and surplusage. But- this logical, argument is
predicated on a faulty unstated premise: that the two
alternatives are necessarily between further harassment and no further harassment. That is a misreading
of Davis as a whole and the causation element in particular. See Zachary Cormier, Is Vulnerability
Enough? Analyzing the Jurisdictional Divide on the
Requirement for Post-Notice Harassment in Title IX
Litigation, 29 Yale J.L. & Feminism 1, 23 (2017) (concluding from a "natural reading" of Davis that,
"[r]ather than beginning an entirely separate idea, the
vulnerability component completes the idea that began within the causation component").

14a
A plain and correct reading of that two-part causation statement, Davis, 526 U.S. at 645, particularly
when read in conformity with the overall opinion, reveals that the two alternatives are actually two possible ways that the school's "clearly unreasonable" response could lead to further harassment: that response might (1) be a detrimental action, thus fomenting or instigating further harassment, or it might (2)
be an insufficient action (or no action at all), thus making the victim vulnerable to, meaning unprotected
from, further harassment. Stated in a more articulate
way:
The Davis Court described wrongful conduct of
both commission (directly causing further harassment) and omission (creating vulnerability
that leads to further harassment). The definition presumes that post-notice harassment has
taken place; vulnerability is simply an alternative pathway to liability for harassment, not a
freestanding alternative ground for liability. In
sum, the vulnerability component of the . . .
`subjected' definition was not an attempt at creating broad liability for damages for the possibility of harassment, but rather an effort to ensure that a student who experiences post-notice
harassment may obtain damages regardless of
whether the harassment resulted from the institution placing the student in a position to experience that harassment or leaving the student vulnerable to it.
Cormier, 29 Yale J.L. & Feminism at 23-24. We find
this explanation persuasive.

15a
The plaintiffs cite several cases that rely on their
same misreading of Davis to support that same inapt
logical argument. But none of those cases is controlling. And, because we find none of them persuasive,
we decline to address them specifically or discuss them
here.
Finally, the plaintiffs argue that a Title IX studenton-student cause of action cannot require further har-.
assment because, they contend, a single, sufficiently
severe sexual assault is enough to state a viable action. But that too is a misreading of Davis, as was explained, supra, in the analysis of the "pervasive" element, which quoted and relied on Davis, 526 U.S. at
652-53: A single assault—particularly before any notice or response—does not state a claim under Davis.
A Title IX priVate cause of action against a school
for deliberate indifference to student-on-student sexual harassment comprises the two components of actionable sexual harassment by a student and a deliberate-indifference intentional tort by the school, along
with the underlying elements for each. We hold that
the plaintiff must plead, and ultimately prove, an incident of actionable sexual harassment, the school's
actual knowledge of it, some further incident of actionable sexual harassment, that the further actionable
harassment would not have happened but for the objective unreasonableness (deliberate indifference) of
the school's response, and that the Title IX injury is
attributable to the post-actual-knowledge further harassment.

16a
In a § 1292(b) interlocutory appeal, we decide "pure
questions of law," Foster Wheeler, 970 F.2d at 202, regarding "any issue fairly included within the certified
order," Yamaha Motor Corp., 516 U.S. at 205. The next
question in this appeal is whether the perpetrators'
behavior after the school's response, as pleaded in the
Complaint, satisfies the causation element, supra, or
whether that post-response behavior could not, as a
matter of law, satisfy the standard for actionable sexual harassment and, consequently, could not satisfy
the causation element.
In January 2012, Emily Kollaritsch reported to
MSU that a male student had sexually assaulted her,
which triggered MSU's response. MSU completed an
investigation in August 2012 and disciplined the perpetrator in November 2012 by placing him on probation and forbidding him any contact with Kollaritsch.
But Kollaritsch subsequently encountered him at
least nine times—she says that he "stalked, harassed
and/or intimidated" her at least nine times. Kollaritsch also says that when she filed a formal "retaliation complaint" in March 2013, the MSU administrator said "there was a difference between retaliation
and just seeing [him,] and consistently suggested that
Kollaritsch needed mental health services." MSU
nonetheless conducted an investigation, which determined that no retaliation had occurred.
Kollaritsch has not pleaded further actionable sexual harassment. She did not provide any details or assert any facts about these encounters to show—or even
suggest—that they were sexual, or that they were se-

17a
vere, pervasive, or objectively unreasonable. In describing her encounters in the Complaint, she suggested that these were merely their mutual presence
at the same location:
[The perpetrator] and Kollaritsch lived in the
same dormitory and frequented the same cafeteria and public areas around the dormitory.
Kollaritsch actually encountered [him] on multiple occasions, subsequent to filing her official
report. On more than one instance, Kollaritsch
encountered [him] at a dormitory cafeteria. On
each of these occasions, Kollaritsch experienced
a panic attack, and was forced to leave the
building, often crying, lightheaded, and significantly distraught.
Kollaritsch characterized the nine encounters as
"stalking, harassing, and intimidating," but those conclusory statements, without supporting facts, are
meaningless. In the Complaint, Kollaritsch expressed
her indignation at the MSU administrator for discounting the encounters as nothing more than her
"just seeing him," but she did not provide any rebuttal
that would describe the encounters as something more
(i.e., something sexual, severe, pervasive, or objectively offensive).4 See Gordon v. Traverse City Area

4 It is noteworthy that the plaintiffs' overall theory and argument
is that further actionable harassment is not necessary, arguing
in their appellate brief that "a victim need not suffer actual, subsequent harassment in order to state a claim[, but] [r]ather, a
vulnerability to additional harassment . . . is sufficient." That is

18a
Pub. Sch., 686 F. App'x 315, 325 (6th Cir. 2017) (because plaintiffs "offer no details on the nature of this
additional harassment, when it occurred, or how [defendant] responded," "these missing pieces doom
[their] case").
We hold as a matter of law that Kollaritsch's allegations, as stated in her Complaint, do not plead actionable further sexual harassment and, therefore,
she has not pleaded and cannot show causation necessary to state a viable deliberate-indifference claim under Title IX and Davis.
In February 2014, Shayna Gross reported to MSU
that a male student had sexually assaulted her, which
triggered MSU's response. MSU completed an investigation in October 2014, finding sexual assault, and
disciplined the perpetrator in January 2015 by expelling him from the university. MSU denied his first appeal, but his second appeal led to a new investigation
by an outside law firm, which found no sexual assault,
and MSU presumably reinstated him. At no point after the initiation of MSU's response did that male student have any contact with or commit any further harassment of Gross. In the Complaint, Gross said only
that she "could have encountered him at any time" due
to his "mere presence . . . on campus." Gross did not
plead any facts that would show any post-response encounter, much less any further sexual harassment
that was actionable.

an unnecessary theory if the facts and circumstances of these encounters could demonstrate actionable further sexual harassment.

19a
We hold as a matter of law that Gross's allegations,
as stated in her Complaint, do not plead actionable
further sexual harassment and, therefore, she has not
pleaded and cannot show causation necessary to state
a viable deliberate-indifference claim under Title IX
and Davis.
In February 2014, Jane. Roe 1 reported to MSU
that a male student had sexually assaulted her, which
triggered MSU's response. MSU completed an investigation in November 2014, declining to find sexual assault due to insufficient evidence. At no point after the
initiation of MSU's response did the male student
have any contact with or commit any further harassment of Roe 1; in fact, he withdrew from the university
in April 2014. There is no indication that he ever returned. In her Complaint, Roe 1 said that the male
student "could return to campus without [her]
knowledge," and that his "mere presence . . . on campus, after [she] made her report to MSU . . . created a
hostile environment for [her] and made her vulnerable
to further harassment." She did not plead any facts
that would show any post-response encounter, much
less any further sexual harassment that was actionable.
.We hold as a matter of law that Roe l's allegations,
as stated in her Complaint, do not plead actionable
further sexual harassment and, therefore, she has not
pleaded and cannot show causation necessary to state
a viable deliberate-indifference claim under Title IX
and Davis.
IV.

20a
When Shayna Gross reported that a male student
had sexually assaulted her, MSU undertook an investigation that found sexual assault and it ordered the
male student expelled from the University. The male
student appealed and MSU denied his first appeal, but
when he appealed again, Denise Maybank, MSU's
Vice President for Student Affairs, set aside the previous findings and ordered that a new investigation be
conducted by an outside law firm, which found no sexual assault. Gross claimed that Maybank's response
was deliberately indifferent and violated her clearly
established right to equal protection, making Maybank liable to Gross under § 1983. Maybank moved to
dismiss the claim, asserting qualified immunity, but
the district court denied the motion, holding that
Gross had stated an "equal protection right to be free
from student-on-student discrimination" that was
"well-established." Kollaritsch, 298 F. Supp. 3d at
1109 (quotation marks and citation omitted). Although the Complaint was not so specific, the district
court reasonably determined that the claim centered
on Maybank's decision to set aside the initial investigation's finding of sexual assault and order a new investigation by outside counsel. Id. at 1107.5 The district court did not elaborate further on the specifics,
but emphasized that, "[alt least in the [C]omplaint, no
explanation for this decision is provided," and declared
the decision "unreasonable under the circumstances
5 On appeal, Gross has described the violation as: "Maybank,
without authority in the policies or procedures of MSU[,] nullified
the prior investigation of [Gross's] assailant and voided his sanctions on an unsanctioned second appeal by the assailant." We can
accept this description for our purposes.

21a
as a response to Gross's allegation of a sexual assault."
Id.
Qualified immunity shields government officials
from standing trial for civil liability in their performance of discretionary functions, unless their actions
violate clearly established rights. Cahoo v. SAS Analytics Inc., 912 F.3d 887, 897 (6th Cir. 2019). To survive a motion to dismiss based on qualified immunity,
the complaint must allege facts that, if proven to be
true, would show the violation of a right so clearly established that a reasonable official would necessarily
have recognized the violation. Id. at 898. "[D]amage
claims against government officials arising from alleged violations of constitutional rights must allege,
with particularity, facts that demonstrate what each
defendant did to violate the asserted constitutional
right." Id. at 899. The Supreme Court has been emphatic and explicit in what it means by "clearly established":
[T]he. legal principle [must] clearly prohibit the
offidiall's conduct in the particular circumstances before him. The rule's contours must be
so well defined that it is clear to a reasonable
offic[ial] that his conduct was unlawful in the
situation he confronted. This requires a high
degree of specificity . . . . [C]ourts must not define clearly established law at a high level of
generality, since doing so avoids the crucial
question [of] whether the official acted reasonably in the particular circumstances that he or
she faced. A rule is too general if the unlawfulness of the offic[ial]'s conduct does not follow

22a
immediately from the conclusion that the rule
was firmly established.
District of Columbia v. Wesby, 583 U.S. --, 138 S. Ct.
577, 590 (2018) (quotation marks, editorial marks, and
citations omitted). And, as we have said, "[t]here does
not need to be a case directly on point, but existing
precedent must have placed the constitutional question beyond debate." Cahoo, 912 F.3d at 898 (quotation
marks, editorial marks, and citation omitted).
Gross claims that Maybank's decision to set aside
the initial investigation's finding of sexual assault
(and the initial order of expulsion) and, without explanation or citation to authority, order a new investigation by outside counsel, violated her clearly established equal-protection right to be free from studenton-student discrimination. Gross cites two cases for
support, Shively v. Green Local School District Board
of Education, 579 F. App'x 348, 358 (6th Cir. 2014),
and Doe v. Forest Hills School District, No. 1:13-cv428, 2015 WL 9906260, at *14 (W.D. Mich. Mar. 31,
2015), but neither case addresses with a "high degree
of specificity" anything like Maybank's act of setting
aside one investigation in favor of another without explanation or apparent authority, much less under
these "particular circumstances," as is required by
Wesby, 138 S. Ct. at 590.
Moreover, Gross's theory fundamentally contradicts Davis, 526 U.S. at 648. Davis explained that
"[s]chool administrators will continue to enjoy the flexibility they require" in conducting investigations and
imposing discipline, and "courts should refrain from
second-guessing the disciplinary decisions made by

23a
school administrators." Id. at 648 (citation omitted).
Particularly prescient here is the Davis dissent's comment that "[o]ne student's demand for a quick response to her harassment complaint will conflict with
the alleged harasser's demand for due process," putting the school in a position where it is "beset with litigation from every side." Id. at 682 (Kennedy, J., dissenting). Such were Maybank's "particular circumstances," as she was caught between Gross's demand
for judgment and punishmerit on one side arid the accused male student's appeal for additional due process
on the other. See also M.D. v. Bowling Green Indep.
Sch. Dist., 709 F. App'x 775, 777 (6th Cir. 2017) ("Often, school administrators face the unenviable task of
balancing victims' understandable anxiety with their
attackers' rehabilitation.").
Gross is clearly dissatisfied with Maybank's decision to overturn the male student's punishment (expulsion), which also servedas Gross's remedy.6 But
Gross has no "right" to her preferred remedy. Davis
expressly denied the prospect "that administrators
must engage in particular disciplinary action," arid
stressed that the victim does not "have a Title IX right
to make particular remedial demands." Id. at 648; see
also Stiles, 819 F.3d at 848; M.D., 709 F. App'x at 777.

Gross is also dissatisfied with Maybank's decision to set aside
the initial investigation's findings and order a new investigation
to be conducted by an outside law firm, but Gross would have
little, if any, genuine complaint if the new investigation had upheld the initial investigation and led Maybank to sustain the initial punishment.

24a
Gross claimed a right to be free from student-on-student discrimination and predicated the alleged violation of that right on her belief that Maybank's decision
about the punishment (her remedy) was deliberately
indifferent. But Gross has pointed us to no legal principle or precedent that clearly prohibits Maybank's
otherwise discretionary decision under these "particular circumstances." See Wesby, 138 S. Ct. at 590. Gross
has not claimed a violation of any other right.
The Complaint does not allege facts showing that
Maybank violated Gross's clearly established constitutional right to equal protection. Maybank is entitled to
qualified immunity.
V.
For the foregoing reasons, we REVERSE the district court's order denying the defendants' motion to
dismiss the Complaint and REMAND for entry of
judgment dismissing these claims.

25a

CONCURRENCE

THAPAR, Circuit Judge, concurring. I join the majority opinion in full. But since the question here has
divided our sister circuits, I write separately to explain why.
To begin with, I should emphasize that the allegations in this case are troubling. The plaintiffs allege
facts suggesting that Michigan State University seriously mismanaged its Title IX process. And that matters to everyone involved—the victims, the accused,
their families and friends, and the broader University
community. Everyone has an interest in a timely, fair,
and transparent process for resolving claims of sexual
assault. So long as we expect universities to adjudicate
such claims, we should expect them to do better.
But this case is not about whether the University
mismanaged its Title IX process. Rather, the question
here is whether Michigan State University "subjected"
the plaintiffs to "discrimination" (as those terms are
used in Title IX). To answer that question, the parties
agree, we should look to the Supreme Court's decision
in Davis v. Monroe County Board of Education, 526
U.S. 629 (1999). There, the Court decided that a school
may be held liable for "student-on-student harassment" only if the school "acts with deliberate indifference to known acts of harassment in its programs or
activities" and that harassment is "severe, pervasive,
and objectively offensive." Id. at 633. The parties also
agree that Davis established a causation requirement.

26a
The Court made clear that a school "may not be liable
for damages unless its deliberate indifference 'subjects' its students to harassment." Id. at 644 (alteration adopted). Yet the parties—as well as our sister
circuits—disagree about what this requirement entails.
That confusion has arisen based on the Supreme
Court's definition of the term "subjects." In Davis, the
Court said that the school's deliberate indifference
must 'cause students to undergo' harassment or
`make them liable or vulnerable' to it." Id. at 645 (alteration adopted) (quoting Random House Dictionary
of the English Language 1415 (1966); Webster's Third
New International Dictionary 2275 (1961)). Some
courts have read this language broadly. Students
must allege only that the school's deliberate indifference made harassment more likely, not that it actually
led to any harassment. See, e.g., Farmer v. Kan. State
Univ., 918 F.3d 1094, 1103-04 (10th Cir. 2019); Fitzgerald v. Barnstable Sch. Comm., 504 F.3d 165, 172
(1st Cir. 2007), rev'd on other grounds, 555 U.S. 246
(2009). Other courts have read the language more narrowly. Students must allege that the school's deliberate indifference actually led to harassment, not that it
only made such harassment more likely. See, e.g., K.T.
v. Culver-Stockton Coll., 865 F.3d 1054, 1057-58 (8th
Cir. 2017); Escue v. N. Okla. Coll., 450 F.3d 1146,
1155-56 (10th Cir. 2006); Reese v. Jefferson Sch. Dist.
No. 14J, 208 F.3d 736, 740 (9th Cir. 2000).
Today, our circuit adopts the latter view, and I
think rightly so. Under Title IX, schools can "subject"
their students to harassment in two different ways.

27a
First, the school can "cause" the harassment directly.
Imagine, for instance, that the school sent disparaging
emails to just its female students. In that scenario, we
would have no trouble saying that the school had "subjected" the students to harassment. After all, the
school's conduct quite directly led to the harassment.
Yet Davis also said that schools can "subject" their students to harassment in a second way: the school can
make its students "vulnerable" to harassment. Take
the facts of Davis itself. There, the school "subjected"
a student to harassment because it failed to take any
effort to prevent or end ongoing harassment by another student. Davis, 526 U.S. at 635, 654. Unlike in
the first scenario, the school's conduct did not directly
cause the harassment. But still the Court concluded
that the school had "effectively caused" the harassment. Id. at 642-43 (cleaned up). And that's because
the school's conduct indirectly led to the harassment:
it left the student vulnerable to her harasser.
But in either scenario, we wouldn't say that the
school had "subjected" its students to harassment if
the students never experienced any harassment as a
result of the school's conduct. To be "subjected" to a
harm, as a matter of ordinary English, requires that
you experience that harm. And that holds true
whether someone directly causes the harm or simply
makes you vulnerable to it.
That more precise reading also makes sense when
you consider the specific statutory text. Under Title
IX, "[n]o person in the United States shall, on the basis
of sex . . . be subjected to discrimination under any ed-

28a
ucation program or activity receiving [federal funding]." 20 U.S.C. § 1681(a) (emphasis added). If a person can be "subjected to harassment" without experiencing any harassment as a result of the defendant's
conduct, then a person can also be "subjected to discrimination" without experiencing any discrimination
as well. And that surely can't be right. The Supreme
Court has long debated whether the phrase "subjected
to discrimination" (used in various statutes) requires
the plaintiff to prove a discriminatory intent. See, e.g.,
Guardians Ass'n v. Civil Serv. Comm'n of City of New
York, 463 U.S. 582 (1983). But no one has questioned
whether the plaintiff must prove some discriminatory
effect.
Consider also the statutory context. The phrase
"subjected to discrimination" appears in a parallel list
with the phrases "excluded from participation" and
"denied the benefits." 20 U.S.C. § 1681(a). To "exclude"
means to "shut out," "hinder the entrance of," or "expel." Random House Dictionary of the English Language 497 (1966); Webster's Third New International
Dictionary 2275 (1961). So to be "excluded from participation" means that something blocked your participation—not just that something made it more likely
that you wouldn't be able to participate. To "deny" (as
relevant here) means "to withhold" or "refuse to
grant." Random House Dictionary of the English Language 387 (1966); Webster's Third New International
Dictionary 603 (1961). So to be "denied [ ] benefits"
means that something held the benefits back—not just
that something made it more likely that you wouldn't
be able to receive them. This context reinforces the

29a
point. To be "subjected to discrimination" means that
something led you to experience discrimination—not
just that something made it more likely that you
would face it.
And if you're still not convinced, two more points
favor this reading. First, Congress enacted Title IX
under the Spending Clause. See Gebser v. Lago Vista
Indep. Sch. Dist., 524 U.S. 274, 287 (1998). In effect,
Congress offered the states a deal: they would receive
federal funding so long as they complied with the requirements of Title IX. But the states could not knowingly accept that offer if they didn't know its terms. So
Congress had to identify any condition on its funding
"unambiguously." Pennhurst State Sch. & Hosp. v.
Halderman, 451 U.S. 1, 17 (1981). And if it didn't, then
the states may not be held liable for a violation. See
Gebser, 524 U.S. at 287-88. So even if there were any
ambiguity, that very ambiguity would require us to
adopt the less expansive reading of Title IX.
Second, the opinion in Davis itself supports this
reading. There, the Court went to great lengths to emphasize the narrowness of its decision. See Davis, 526
U.S. at 648-49, 652-53. And it expressly warned
against any "characterization" of its opinion that
would "mislead courts to impose more sweeping liability" than Title IX requires. Id. at 652. But some of our
sister circuits have adopted just such a characterization. To hold schools liable for any act or omission that
makes students "vulnerable to" harassment is to hold
schools liable for a wide range of decisions. Could a
university be held liable for reducing its Title IX staff
as a result of budget cuts? What about for allowing a

30a
bar to open on campus? Or for expanding coed housing
options? All these decisions could make students vulnerable to harassment. Yet surely Title IX does not
make schools liable for these everyday decisions. In
short, I would not read the term "subjects" so broadly
as to erase the causation requirement enacted by Congress and confirmed by the Supreme Court.
Of course, all this does not resolve what should
count as "discrimination" under Title IX. But the
plaintiffs in this case premised their suit on studenton-student harassment. And Davis made clear that
"discrimination" in such cases means "severe, pervasive, and objectively offensive" harassment—not just
the risk of harassment. Id. at 650. We have no authority to say otherwise.
For these reasons, the plaintiffs have failed to state
a claim under Title IX. The plaintiffs have not adequately alleged that they experienced any harassment
after Michigan State University had notice of their
complaints. As a result, they cannot show that the
University "subjected" them to harassment.

31a

CONCURRENCE

ROGERS, Circuit Judge, concurring. I join parts I,
III, and IV of the majority opinion, and concur in the
result. I agree with the analysis in support of our holding that a Title IX sexual harassment plaintiff must
plead post-notice sexual harassment, and that mere
vulnerability .to sexual harassment after the school
has actual notice is not enough.
There is no reason, however; for us to address what
a plaintiff must show to establish the required actual
notice. What constitutes actual notice in this case is
not at issue, and in particular was not an issue discussed by the parties on appeal. The plaintiffs here all
allege sufficiently severe sexual assault, plus reporting to MSU, to demonstrate that they meet the actual
notice requirement under Title IX. Any statement by
us that notice must, as one example, be notice of "actionable" sexual harassment is accordingly not necessary to our decision and, whether right or wrong, is
usefully. avoided and in any event not controlling on
future panels.
Judge Leval, in his timeless 2005 Madison Lecture,
tellingly criticized the tendency of judges "to promulgate law through utterance of dictum made to look like
a holding—in disguise, so to speak. When we do so, we
seek to exercise a lawmaking power that we do not
rightfully possess." Pierre Leval, Judging Under the
Constitution: Dicta about Dicta, 81 N.Y.U. L. Rev.
1249, 1250 (2006).

32a
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
EMILY KOLLARITSCH, et al.,
Plaintiffs,

)
)
) No. 1:15-cv-1191
-v)
) Honorable
) Paul L. Maloney
MICHIGAN STATE UNIVERSITY )
BOARD OF TRUSTEES, et al.,
)
Defendants. )
)
ORDER GRANTING MOTION FOR CERTIFICATE OF APPEALABILITY FOR INTERLOCUTORY APPEAL
Defendant Michigan State University requests the
Court issue a certificate of appealability for an interlocutory appeal. (ECF No. 70.) For the following reasons,
Defendant's motion is GRANTED.
Plaintiffs are four former students at Michigan
State University (MSU). Each alleges that she was sexually harassed or assaulted by another student and reported the incident to MSU. Not satisfied with the manner in which the assaults were investigated and resolved, Plaintiffs filed this Title IX lawsuit. Defendants
filed a motion to dismiss. This Court granted the motion
in part and denied the motion in part. The Court dismissed the Title IX claim brought by one plaintiff, but

33a
allowed the Title IX claims brought by three other
plaintiffs to proceed. The Court denied the request for
qualified immunity sought by Defendant Denise Maybank on an Equal Protection violation claim. Defendants have appealed the denial Of qualified immunity.
In this motion, Defendants asked the Court to certify an issue for an interlocutory appeal. According to
Defendants, Title IX requires plaintiffs to plead that a
school's deliberate indifference caused them to suffer
further harassment. In denying the motion to dismiss
the Title IX claims brought by three of the plaintiffs, the
Court found that the allegations in the complaint were
sufficient to state a claim under Title IX. Each of the
three plaintiffs pleaded sufficient facts to establish the
deliberate indifference element and that they three
were denied educational opportunities as a result of
MSU's deliberate indifference. The Court did not determine whether the complaint alleged facts to support the
conclusion that MSU's deliberate indifference caused
further harassment.
Generally, parties may only appeal final decision's of
district courts to the courts of appeal. 28 U.S.C. § 1291;
see Mohawk Indus., Inc. v. Carpenter, 558 U.S. 100, 106
(2009). However, parties may take an interlocutory appeal when certain conditions are met. The statute au
thoriiing interlocutory appeal provides:
(b) When a district judge, in making in a civil
action an order not otherwise appealable under
this section, shall be of the opinion the such or
der involves a controlling question of law as to
which there is substantial ground for difference
of opinion and that an immediate appeal from

34a
the order may materially advance the ultimate
termination of the litigation, he may shall so
state in writing in such order . . . .
28 U.S.C. § 1292(b). The Sixth Circuit Court of Appeals
has held that this statute requires three elements be
present before a court may, in its discretion, certify an
order for interlocutory appeal: (1) the order involves a
controlling question of law, (2) a substantial ground for
differences of opinion exists concerning the correctness
of the decision, and (3) an immediate appeal may materially advance the ultimate termination of the litigation. In re City of Memphis, 293 F.3d 345, 350 (6th Cir.
2002) (citing Cardwell v. Chesapeake & Ohio Ry. Co.,
504 F.2d 444, 446 (6th Cir. 1974)). The Sixth Circuit has
cautioned that certification under § 1292(b) should be
"sparingly applied" and used "only in exceptional cases."
Kraus v. Bd. of County Rd. Comm'rs, 364 F.2d 919, 922
(6th Cir. 1966) (quoting Milbert v. Bison Labs., 260 F.2d
431, 433 (3d Cir. 1958)).
Defendant has established the requirements for the
Court to certify an issue for an interlocutory appeal. At
the outset, the Court makes two observations. First, in
August 2017, the United States District Court for the
District of Kansas certified the same issue for an interlocutory appeal. Weckhorst v. Kansas State University,
No. 16-cv-2255, 2017 WL 3701163 (D. Kan. Aug. 24,
2017). Of course, how the Tenth Circuit resolves the certified issue would only be persuasive, not binding, authority.
Second, the Sixth Circuit has not directly addressed
this issue in a published decision. The Sixth Circuit's
statement in Vance v. Spencer County Public School

35a.
District, 231 F.3d 253, 259 (6th Cir. 2000) that "one incident can satisfy a claim" does not resolve the matter.
In that case, the plaintiff pleaded multiple incidents of
sexual harassment and, read in context, the Sixth
Circuit was explaining that the allegations met the
requirement that the harassment must be severe and
pervasive enough to deprive a plaintiff of educational
opportunities. The statement does not clarify whether a
single incident which is then reported would be
sufficient, or if a single incident after the school is put
on notice is necessary.
The more recent decision, M.D. v. Bowling Green
Independent School District, --F. App'x--, 2017 WL
4461055 (6th Cir. Oct. 6, 2017), similarly leaves open
the question of whether further harassment is required.
Although the plaintiff alleged that the mere presence on
campus of the person who assaulted her created a
hostile environment, caused her grades to suffer, and
resulted in lost opportunities with the cheerleading
coaches, the court resolved the claim on the deliberate
indifference element. The court concluded that even if
the plaintiff felt vulnerable, the school's response to the
incident was not clearly unreasonable. Id. at *2. And,
the court held that it had to refrain from second_ guessing the decisions made by the school
administrators. Id.
In an unpublished decision in 2004, the Sixth Circuit
affirmed, this Court's decision granting a school
district's motion for summary judgment on a Title IX
claim. Noble v. Branch Intermediate Sch. Dist., 112 F.
App'x. 507 (6th Cir. 2004). In the underlying opinion,
the Court reasoned that a Title IX recipient cannot be

36a

liable merely because the plaintiff had a fear of future
harassment or a feeling of vulnerability. Noble v.
Branch Intermediate Sch. Dist. No. 4:01-cv-58, 2002
U.S. Dist. LEXIS 19600 *67 (W.D. Mich. Oct. 9, 2002).
The holding, however, was preceded by the conclusion
that the school's response was not deliberately
indifferent. Id. at 56-65. Therefore, the portion of the
opinion discussing the "further harassment"
requirement is dicta. See United States v. Hardin, 539
F.3d 404, 411-12 (6th Cir. 2008) (explaining that when
a holding is not necessary to the determination of the
issue on appeal, the holding is dicta).
Defendant has established that the issue to be
certified is a controlling issue of law. Defendant filed a
motion to dismiss. The question for certification asks
about a pleading requirement, a legal issue. Without
dispute, resolution of the question would "materially
affect the outcome of the case." In re City of Memphis,
293 F.3d at 351. This Court denied Defendant's motion
regarding the Title IX claims on facts that did not
require each plaintiff to prove harassment subsequent
to the initial report. Plaintiffs do not dispute that
Defendant has established this requirement for
certification of an interlocutory appeal.
Defendant has established that a substantial ground
for difference of opinion exists with respect to the
pleading requirements of a Title IX claim. As evidenced
by the summaries below, the question raised by
Defendant is difficult and has little direct precedent.
See In re Miedzianowski, 735 F.3d 383, 384 (6th Cir.
2013). And, although the Davis opinion has been
binding law for many years, the proper interpretation

37a
of relevant passage appears to be a novel issue. See id.
Where the district courts have considered whether
further acts of harassment are required, they have
acknowledged a difference of opinion on the issue. And,
where the circuit courts have included language that
appears favorable to Defendant's position here, ,a
careful reading of the passage undermines the
precedential value of the holdings.
Resolving Defendant's motion to dismiss, this Court
relied on the language in Davis v. Monroe County Board
of Education, 526 U.S. 629, 644-45 (1999) indicating a
Title IX claim arises when the defendant's deliberate
indifferent leaves the plaintiff "liable or vulnerable to"
further harassment. Multiple . district courts have
permitted Title IX claims to proceed past the pleading
stage where the plaintiff did not allege specific acts of
further harassment. E.g., Hernandez v. Baylor Univ.,
--F. Supp. 3d.--, 2017 WL 1322262, at *5 (W.D. Tex. Apr.
7, 2017) (holding that the pleading requirement for
further harassment can be met if the plaintiff pleads
that a school left the student vulnerable to further
harassment) (collecting cases). And, district courts have
questioned the reasoning of a requirement that a
student must suffer further harassment to have a viable
claim. E.g., Karasek v. Regents of the Univ. of
California, No. 15-cv-3717, 2015 WL 8527338, at ”0*12 (N.D. -'Cal. Dec. 11, 2015) (collecting -cases with
opposing holdings and concluding that requiring a
plaintiff must be harassed or assaulted a second time
before the school's unreasonable response become
actionable runs counter to the goals of Title IX). In these
opinions, the district courts addressed the question

38a
presented by Defendant here, whether the institution
can be liable when its deliberately indifferent response
leaves a student vulnerable to further harassment.
Defendant is correct that several published circuit
court opinions exist that contain language from which
it can be inferred that a plaintiff must plead acts of
further harassment caused by the institution's
deliberate indifference. These opinions lay the
foundation for the difference of opinion requirement.
For example, in Williams v. Board of Regents of
University System of Georgia, 477 F.3d 1282, 1296 (11th
Cir. 2007), the Eleventh Circuit wrote that the plaintiff
must plead that the "Title IX recipient's deliberate
indifference to the initial discrimination subjected the
plaintiff to further discrimination." But, subsequent
statements by the court suggest that the further
discrimination need not be in the form of acts of
harassment or assault. Several paragraphs after the
above quoted statement, the court found that the
school's delayed and inadequate investigation
constituted deliberate indifference which "was followed
by further discrimination, this time in the form of
effectively denying Williams an opportunity to continue
to attend UGA. Although Williams withdrew from UGA
the day after the January 14 incident, we do not believe
that at this stage her withdrawal should foreclose her
argument that UGA continued to subject her to
discrimination." Id.
Other opinions contains language favorable to
Defendant, but the relevant passages were not
addressing whether a plaintiff must plead acts of
further harassment. For example, in K.T. v. Culver-

39a
Stockton College, 865 F.3d 1054, 1058 (8th Cir. 2017),
the plaintiff alleged that she was sexually assaulted by
another student, reported the incident to the school,
which did nothing. The court resolved the matter by
concluding the plaintiff failed to plead facts to show
deliberate indifference. Id. To show deliberate
indifference, the plaintiff alleged the school was
"deliberately indifferent by failing to adopt practices to
prevent sexual assault and also by failing to investigate
or offer [her] medical services." Id. The court found that
these allegations did not show how the school's
indifference caused the assault. Id. The court did not
consider or otherwise address whether further acts of
harassment were required at the pleading stage.
Like the Noble opinion, the language in other circuit
opinions favorable to Defendant is dicta. The holding in
Escue v. Northern Oklahoma College, 450 F.3d 1146,
1155 (10th Cir. 2006), is typidal. The court found, at,
summary judgment, that the Title IX recipient was not
deliberately indifferent. Id. Only then, after finding
sufficient reason to dismiss the Title IX claim, did the
court note, as significant, that the plaintiff did not
allege further sexual harassment. Id.
Finally, Defendant has deinonstrated that an
immediate appeal will materially advance the ultimate
termination of the litigation. One of the remaining
plaintiffs, Jane Roe 1, did not plead any subsequent or
further harassment from her alleged attacker. And, if
the other two plaintiffs must proceed under the theory
advanced by Defendant, the number of issues to be
resolved in this litigation will be reduced.

40a
The Court also notes, as significant, that the parties
will already be submitting briefs to the Sixth Circuit for
Defendant Maybank's qualified immunity appeal.
Certifying this issue would, therefore, constitute an
efficient use of judicial resources.
Accordingly, the Court certifies its previous Opinion
and Order (ECF No. 66) for interlocutory appeal and for
a determination of the controlling questions of law: (1)
must a plaintiff plead, as a distinct element of a Title IX
claim, that she suffered acts of further discrimination
as a result of the institution's deliberate indifference,
rather than alleging mere vulnerability to further acts
of discrimination; and (2) if a plaintiff must plead acts
of further discrimination, does a plaintiff's allegations
that the institution's deliberate indifference caused the
deprivation of educational opportunities satisfy the
pleading requirement?
IT IS SO ORDERED.
Date: January 26, 2018

/s/ Paul L. Maloney
Paul L. Maloney
United States District
Judge

41a
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
EMILY KOLLARITSCH, SHAYNA
GROSS, JANE ROE 1, and
JANE ROE 2,
Plaintiffs,

)
)
)
)
No.
1:15-cv-1191

MICHIGAN STATE UNIVERSITY
BOARD OF TRUSTEES, et al.
Defendants.

) Honorable
) Paul L. Maloney
)
)
)
)

OPINION AND ORDER GRANTING IN PART
AND DENYING IN PART MOTION TO DISMISS
Plaintiffs are four women who allege they were
sexually harassed or assaulted by other students while
they were students at Michigan State University
(MSU). Each plaintiff alleges she reported the assault
to the MSU, which did not adequately respond.
Plaintiffs assert claims for violations of Title IX and
Michigan's Elliott-Larsen Civil Rights Act (ELCRA).
Through § 1983, Plaintiffs also assert claims for
violations of their constitutional rights to Due Process

42a
and Equal Protection.27 Defendants filed a motion to
dismiss. (ECF No. 28.) The Court held a hearing on the
motion.
The motion will be granted in part and denied in
part. Plaintiffs have conceded several of the claims,
including the violations of Due Process and violations of
the ELCRA. The Title IX claim brought by Jane Roe 2
will be dismissed, as the allegations in the complaint do
not establish deliberate indifference. Plaintiffs' Equal
Protection claim against MSU Board of Trustees has
been withdrawn, and the motion will be granted for the
Equal Protection claims against Defendants Simon and
Youatt. The complaint does not allege sufficient facts to
show how those individuals violated the constitutional
rights of any of the plaintiffs.
I.
At the outset, the Court must clarify the individual
defendants in this case. In the caption for the initial
complaint, Plaintiffs named the Michigan State University Board of Trustees (Trustees); Lou Anna Simon,
the president of the university; and Denise Maybank,
the vice president of student affairs. With leave of the
Court, Plaintiffs filed an amended complaint, which is
the controlling pleading. (ECF No. 25.) Plaintiffs did
not alter the caption, but did add defendants. In the
"Parties and Jurisdiction" portion of the complaint,
Plaintiffs named Trustees (Compl. ¶ 1), Maybank (id.
27 Plaintiffs also asserted a claim for negligence against a
campus fraternity and the national chapter. Those claims, and
the campus fraternity national chapter, have been dismissed.
(ECF No. 48.)

43a
¶ 2), and Simon (id. ¶ 3). As a defendant, Plaintiffs
added' June Pierce Youatt, the acting Provost, or the
Provost and Executive Vice President for Academic Affairs. (Id. ¶ 4.) Plaintiffs also added Paulette Granberry Russell, who at "all times relevant was MSU's
appointed Title IX Coordinator." (Id. ¶ 5.) Plaintiffs
have not requested any additional summonses since
their initial complaint was filed. Defendants Youatt
and Russell made appearances in this lawsuit when
the motion to dismiss was filed on their behalf.
In the portion of the complaint where Plaintiffs
identify and outline their causes of action, Plaintiffs
list the defendants against which each claim is
brought as part of the heading and also identify the
defendants within the claim itself. Count 1 is Plaintiffs' claim for violations of Title IX, and is brought
against Defendant Trustees only. (Compl.
PageID.257-58.) Count 3 is Plaintiffs' claim for violations of the ELCRA, and is brought against Defendant
Trustees only. (Id. PagelD. 359-60.)
The confusion about the individual defendants
arises in Count 2, Plaintiffs' constitutional claims.
(Compl. PageID.258-59.) Plaintiffs name as the defendants for this count the Trustees, Maybank, Simon
and Youatt. Plaintiffs also name as a defendant
Amanda Garcia-Williams. In paragraph 32 of the complaint, Plaintiffs identify Garcia-Williams as MSU's
Title IX Coordinator, the same position held by Russell "at all times relevant." Then, in paragraph 84,
Plaintiffs describe Russell as the Senior Advisor to the
President for Diversity and as the Director of the Of-

44a
fice of Inclusion and Intercultural Initiatives. Plaintiffs also describe Russell as Garcia-Williams's supervisor. (Id. ¶ 84.) Garcia-Williams is mentioned in the
factual allegations for each of the individual plaintiff' s
claims.
Based on this brief summary, the Court reaches
two conclusions. First, Plaintiffs have not asserted a
claim against Defendant Paulette Russell. Plaintiffs
do not identify Russell as a defendant for any of their
counts.28 There is no claim for which Russell must file
an answer. The confusion about Russell's title does not
affect this conclusion. Second, Garcia-Williams is not
currently a named defendant in this lawsuit. Plaintiffs
did not identify Garcia-Williams as a defendant in the
"Parties and Jurisdiction" portion of their complaint.
Plaintiffs have never requested a summons for GarciaWilliams. Garcia-Williams has not made an appearance in this lawsuit. This Court does not currently
have personal jurisdiction over Garcia-Williams.
II.
Defendant filed a motion to dismiss, relying on
Rule 12(b)(6) of the Federal Rules of Civil Procedure.
Under the notice pleading requirements, a complaint
must contain a short and plain statement of the claim
showing how the pleader is entitled to relief. Fed. R.
Russell is mentioned only in paragraphs 5, 84 and 85.
Paragraphs 5 and 84 contain conflicting descriptions of Russell's
role at MSU. At best, paragraphs 84 and 85 allege that Russell
was a bad supervisor. Plaintiffs allege that the mother of Jane
Roe 1 complained to Russell about the manner in which the
investigation of her daughter's complaint was handled and
Russell did not look into the matter or call the mother back.
28

45a
Civ. P. 8(a)(2); see Thompson v. Bank of America, N.A.,
773 F.3d 741, 750 (6th Cir. 2014) (holding that to survive a Rule 12(b)(6) motion, the complaint "must comply with the pleading requirements of Rule 8(a)."). The
complaint need not contain detailed factual allegations, but it must include more than labels, conclusions, and formulaic recitations of the elements of a
cause of action. Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555 (2007). A defendant bringing a motion to dismiss for failure to state a claim under Rule 12(b)(6)
tests whether a cognizable claim has been pled in the
complaint. Scheid v. Fanny Farmer Candy Shops, Inc.,
859 F.2d 434, 436 (6th Cir. 1988).
To survive a motion to dismiss, "[t]he complaint
must 'contain either direct or inferential allegations
respecting all material elements necessary for recovery under a viable legal theory."' Kreipke v. Wayne
State Univ., 807 F.3d 768, 774 (6th Cir. 2015) (citation
omitted). The plaintiff must provide sufficient factual
allegations that, if accepted as true, are sufficient to
raise a right to relief above the speculative level.
Twombly, 550 U.S. at 555. And the claim for relief
must be plausible on its face. Id. at 570. "A claim is
plausible on its face if the 'plaintiff pleads factual content that allows the court to draw the reasonable inference that the defendant is liable for the misconduct
allege4." Ctr. for Bio-Ethical Reform, Inc. v. Napolitano, 648 F.3d 365, 369 (6th Cir. 2011) (quoting
Twombly, 550 U.S. at 556). "The plausibility standard
is not akin to a 'probability requirement,' but it asks
for more than a sheer possibility that a defendant has
acted unlawfully." Ashcroft v. Iqbal, 556 U.S. 662, 678

46a
(2009) (citations omitted). When considering a motion
to dismiss, a court must accept as true all factual allegations, but need not accept any legal conclusions. Ctr.
for Bio-Ethical Reform, 648 F.3d at 369. Naked assertions without further factual enhancement, formulaic
recitations of the elements of a cause of action, and
mere labels and conclusions will be insufficient for a
pleading to state a plausible claim. SFS Check, LLC v.
First Bank of Delaware, 774 F.3d 351, 355 (6th Cir.
2014) (citations omitted).
III.
For this motion, all well-pled factual allegations are
assumed to be true. Plaintiffs describe the events giving
rise to the claims brought by all four students.
A. Plaintiff Kollaritsch
John Doe attempted to rape Plaintiff Kollaritsch in
his dormitory room in October 2011. (Compl. ¶ 28.) On
October 15, John Doe sexually assaulted Kollaritsch in
the stands at an MSU football game. (Id. ¶ 29).
Kollaritsch reported the assaults to the MSU Police on
January 30, 2012. (Id. ¶ 30.) On February 3, Kollaritsch
met with Garcia-Williams to formally commence an
investigation against John Doe by MSU. (Id. ¶ 32.)
While the investigation was occurring, MSU did not
restrict John Doe or accommodate Kollaritsch so that
she would not encounter John Doe. (Id. ¶ 33.) Sometime
in August, some 200 days later, Kollaritsch received the
Investigation Report from MSU. (Id. ¶ 37.) The report
concluded that John Doe violated the MSU Sexual
Harassment Policy, but did not identify the specific
policies or provisions that were violated. (Id. ¶ 39.) The

47a
report did not conclude that John Doe sexually
assaulted Kollaritsch. John Doe accepted responsibility
(id. ¶ 41), and, on November 13, 2012, was placed on
probationary status, and was issued a no-contact order
(id. ¶ 44). Garcia-Williams did not inform Kollaritsch
that she had a right to appeal the sanction. (Id. ¶ 45.)
John Doe thereafter violated the no-contact order
and began stalking, harassing, and otherwise
intimidating Kollaritsch. (Compl. ¶¶ 47-48.) After
reporting his conduct in February, on March 11, 2013,
Kollaritsch filed a formal complaint with MSU about
John Doe's retaliatory harassment. (Id. 50 and 53.) On
March 13, Kollaritsch sought a Personal Protection
Order against John Doe in the East Lansing District
Court, which was issued the next day. (Id. ¶ 55.) In May
2013, Garcia-Williams issued a report concluding that
John Doe had not retaliated against Kollaritsch and
had not further violated MSU's Code of Conduct. (Id. ¶
58.) Kollaritsch was not informed that she could appeal
the conclusions. (Id. ¶ 59.) Between June and August,
Kollaritsch pressed the matter with MSU, complaining
that the investigation was inadequate. (Id. III 60-65.)
B. Plaintiff Jane Roe 1
John Doe 2 sexually assaulted Jane Roe 1 in
November 2013. (Compl. ¶ 70.) The assault occurred on
the MSU campus. (Id.) Jane Roe 1 "immediately"
reported the assault to the MSU Police and also went to
Sparrow Clinton Hospital to have a Sexual Assault
Nurse Examiner (SANE) perform an exam. (Id. ¶ 72.)
In February 2014, Jane Roe 1 filed a formal complaint
with Garcia-Williams, who promised to interview two
witnesses before Spring Break. (Id. ¶ 73.) Jane Roe 1

48a
contacted Garcia-Williams in March and April. (Id.
73 and 74.) Both times she was told that MSU was
waiting for the SANE report. (Id.) In late April and
again in May, Jane Roe l's mother contacted MSU. (Id.
¶ 75 and 76.) Both times she was told that MSU was
still waiting for the SANE report. (Id.) In April, the
mother was told that John Doe 2 had not yet been
interviewed. (Id. ¶ 75.) After the telephone call in May,
the mother called Sparrow Hospital and was told that
the SANE report had been sent to MSU on March 14,
2014. (Id. ¶ 27.)
Jane Roe l's mother made several attempts over the
next few months to speak with Garcia-Williams and her
supervisor, Defendant Russell, with varying success.
(Compl. TT 77-85.) In November, MSU informed Jane
Roe 1 that it had completed its investigation and that
the report was available for Jane Roe 1 to pick up. (Id.
86.) Jane Roe 1 did not respond. (Id.) On December
15, 2014, Garcia-Williams emailed Jane Roe 1 and
informed her that MSU had concluded there was
insufficient evidence to find that John Doe 2 violated
MSU's Sexual Harassment Policy. (Id. ¶ 87.)
C. Plaintiff Jane Roe 2
John Doe 3 sexually assaulted Jane Roe 2 on August
23, 2013. (Compl. ¶ 92.) Jane Roe 2 reported her assault
on August 26. (Id. ¶ 93.) Garcia-Williams interviewed
John Doe 3 on September 3. (Id. ¶ 94.) On December 10,
2013 MSU issued a report finding . John Doe 3 violated
MSU's Student Code of Conduct. (Id. ¶ 95.) John Doe 3
was expelled on January 29, 2014, after a hearing. (Id.
¶ 96.) John Doe 3 appealed his suspension, which was
upheld by Defendant Maybank. (Id. ¶ 97.)

49a
While the investigation and appeals occurred, John
Doe 3 was able to complete the semester, and he
subsequently transferred to another school. (Compl.
104.) John Doe 3 was allowed to remain on campus
throughout the investigation and appeal, subject to a
personal protection order. (Id. ¶ 105.) Nevertheless,
Jane Roe 2 did encounter John Doe 3 on at least one
occasion. (Id. ¶ 106.) On May 5, 2014, MSU contacted
Jane Roe 2 to let her know that John Doe 3 received
permission to return to campus on May 10 to attend a
graduation ceremony. (Id. ¶ 98.) Jane Roe 2 was not
consulted about the decision. (Id. ¶ 99.)
D. Plaintiff Gross
Plaintiff Shayna Gross was an acquaintance of, and
was friendly with, John Doe. (Compl. ¶ 139.) In
February 2013, John Doe invited Gross to hang out at
the Kappa Sigma fraternity house. (Id. ¶ 140.) Gross
made clear to John Doe that they would be hanging out
only as friends. (Id.) Gross and a friend went together
to the fraternity house that night, where John Doe
served Gross alcoholic drinks. (Id. ¶ 141.) Gross can
only remember flashes of the evening. (Id. ¶ 142.) The
next morning, John Doe informed Gross that they had
sex in the fraternity house, in her dorm room, and also
in his dorm room. (Id.) Approximately one year later,
Gross reported the sexual assault to MSU on February
12, 2014. (Id. ¶ 144.) Gross contacted Garcia-Williams
multiple times for status updates about the
investigation, and never received a timely response. (Id.
¶ 146.) MSU completed the investigation on October 14,
2014, concluding that John Doe had sexually assaulted

50a
Gross. (Id. ¶ 147.) A hearing occurred in January 2015,
and John Doe was expelled in February. (Id. ¶¶ 150-51.)
John Doe filed two appeals. His first appeal was
denied on March 2, 2015, by MSU's appellate board.
(Compl. ¶ 153.) After he filed a second appeal,
Defendant Maybank informed Gross that MSU's
conclusions would be set aside and that an outside law
firm would be hired to conduct a new investigation. (Id.
155.) The law firm issued a report on May 13, 2015.
(Id. ¶ 157.) The report concluded that John Doe and
Gross had sexual relations that night, but could not
conclude that the relations were non-consensual. (Id.)
Gross appealed the decision, which was denied. (Id. 'FT
159-60.) Throughout the investigation and appeals,
John Doe was allowed to remain on campus, without
restrictions. (Id. ¶¶ 149 and 161.)
For each plaintiff, Plaintiffs allege Defendants'
reactions to victims' reports were inadequate, leaving
each plaintiff vulnerable on campus and causing
deprivation of her educational opportunities. (Comp. III
66-68 Kollaritsch; It¶ 89-91 Jane Roe 1; Ifif 107-09
Jane Roe 2; Vif 163-65 Gross.)
IV.
Defendants argue Plaintiffs' Title IX claim should be
dismissed. Defendants argue Plaintiffs have not
pleaded sufficient facts to show deliberate indifference
by the institution, MSU. Defendants also argue that
complaint does not established how each plaintiff
suffered harassment as the result of deliberate
indifference.

51a
Title IX prohibits sex discrimination in education
programs that receive federal funding. "No person in
the United States shall, on the basis of sex, be excluded
from participation in, be denied the benefits of, or be
subjected to discrimination under any education
program or activity receiving federal financial
assistance." 20 U.S.C. § 1681(a). Title IX is enforceable
through a private right of action. Gebser v. Lago Vista
Indep. Sch. Dist., 524 'U.S. 274, 281 (1998) (citing
Cannon v. University of Chi., 441 U.S. 677 (1979)). For
a Title IX claim, the plaintiff must plead facts
demonstrating deliberate indifference by the recipient
of federal funding. Id. at 290. Deliberate indifference
occurs when the recipient's response to known acts of
.sexual harassment, or lack thereof, "is clearly
unreasonable in light of the known circumstances."
Davis ex rel. LaShonda D. v. Monroe Cty. Bd. of Ed., 526
U.S. 629, 648 (1999); see Williams ex rel. Hart v. Paint
Valley Local Sch. Dist., 400 F.3d 360, 367-68 (6th Cir.
2005). Deliberate indifference does not occur through a
collection of sloppy, or even reckless oversights; it arises
from obvious indifference to sexual harassment. See Doe
v. Claiborne Cty., Tennessee, 103 F.3d 495, 508 (6th Cir.
1996). The standard for deliberate indifference is a
"high bar," and is not a "mere reasonableness"
standard. Stiles ex rel. D.S. v. Grainger Cty., Tennessee,
819 F.3d 834, 848 (6th Cir. 2016). Title. IX does not
require recipients of federal funding to purge their
institutions of actionable sexual harassment and does
not require the institutions to undertake any particular
disciplinary sanctions. Id. And, Title IX does not give
the victim a right to demand a particular remedy to the
harassment. Id. Under the deliberate indifference

52a
standard, courts should not second-guess an
institution's disciplinary decisions. Id. (citing Davis,
526 U.S. at 648).
Gebser involved sexual harassment of a high school
student by a teacher. The issue was whether the school
district could be held liable for damages. The Supreme
Court explained the notice requirement and the
necessary response by officials. Where the plaintiff's
claim does not involve an official policy, "we hold that a
damages remedy will not lie under Title IX unless an
official who at a minimum has authority to address the
alleged discrimination and to institute corrective
measures on the recipient's behalf has actual
knowledge of discrimination in the recipient's programs
and fails to adequately respond." Gebser, 524 U.S. at
290. The response must amount to deliberate
indifference to discrimination. Id.
The following year, the Supreme Court revisited
Title IX in Davis. The case was brought on behalf of a
fifth-grade girl who had been sexually harassed by
another student in her class. The Court considered
whether the school board could be held liable for peer
harassment. The Court held recipients of federal
funding may be held liable under Title IX only when (1)
they are deliberately indifferent to sexual harassment,
(2) of which they have actual knowledge, (3) that is so
severe, pervasive, and objectively offensive that it
deprives the victims of access to the educational
opportunities or benefits provided by the school. Davis,
526 U.S. 560; see Pahssen v. Merrill Cmty. Sch. Dist.,
668 F.3d 356, 362 (6th Cir. 2012). The funding
recipient's deliberate indifference must cause the

53a
deprivation of educational opportunities and benefits.
Davis, 526 U.S. at 645. Liability for deliberate
indifference arises in circumstances where the funding
recipient "exercises substantial control over both the
harasser and the context in which the known
harassment occurs. Only then can the recipient be said
to 'expose' its students to harassment or 'cause' them to
undergo it 'under' the recipient's programs." Id.
The institution's response to knowledge of sexual
harassment must be reasonable in light of the known
circumstances. Vance v. Spencer Cty. Pub. Sch. Dist.,
231 F.3d 253, 261 (6th Cir. 2000); see Davis, 526 U.S. at
648 (explaining that deliberate indifference arises only
when the funding recipient's "response to the
harassment or lack thereof is clearly unreasonable in
light of the known circumstances."). The promptness of
the institution's response, or lack thereof, may be a
consideration in determining the reasonableness of the
response. See Bruneau ex rel. Schofield v. South
Kortright Cent. Sch. Dist., 163 F.3d 749, 761 (2d Cir.
1998) (finding no error in the jury instructions for a
Title IX case when the court declined to instruct the
jury that the school district had to take "prompt"
remedial action, reasoning that, implicit in the concept
of an appropriate response was that the response must
be prompt) abrogated on other grounds by Fitzgerald v.
Barnstable Sch. Comm., 555 U.S. 246 (2009).
Emphasizing the actual knowledge element of a
Title IX claim, courts have rejected use of agency and
negligence principles. The Davis Court summarized the
holding in Gebser: agency principles cannot be used to
impute liability to the district for misconduct by its

54a
teachers. Davis, 526 U.S. at 642. Davis also held that
the "should have known" standard for negligence
actions did not apply, the institution must have actual
knowledge of the harassment. Id.; Pahssen, 668 F.3d at
365 ("Negligence, however, does not establish deliberate
indifference.").
A. Plaintiff Kollaritsch
The facts alleged in the complaint are sufficient to
state a plausible Title IX claim based on MSU's
response to Kollaritsch's circumstances.
Defendants do not challenge their knowledge of the
alleged sexual harassment. Plaintiffs allege Kollaritsch
reported the assaults to MSU police, MSU's Office of
Inclusion, and to an official with MSU, GarciaWilliams, for the purpose of starting an investigation.
(Compl. II30-32.)
Plaintiffs' allegations are sufficient to plead the
deliberate indifference element. Taken as true, the
allegations establish that Defendants' response was
unreasonable in light of the known circumstances.
MSU's investigation took more than six months. During
the investigation, MSU did not put in place any
accommodations to prevent Kollaritsch from
encountering her harasser. The final report did not
accurately describe the allege assaults and Kollaritsch
was not informed of her right to appeal the sanctions
that were imposed.
A no-contact order was imposed on John Doe as part
of the sanctions against him. He then violated the nocontact order on at least nine occasions, which
Kollaritsch reported to MSU. MSU did not provide any

55a
interim safety measures after Kollaritsch reported the
violations of the no-contact order. Kollaritsch was not
permitted to be involved in the retaliation investigation,
no hearing was held, and when MSU concluded its
investigation, Kollaritsch was again was not informed
of her ability to file an appeal.
Finally, Plaintiffs have alleged sufficient facts to
show that MSU's deliberate indifference deprived
Kollaritsch of educational opportunities. Here, the
Court focuses on what occurred after Kollaritsch made
her initial report. Because she feared for her safety,
Kollaritsch took leaves of absence from MSU and did
not take classes. (Compl. ¶ 66.)
B. Plaintiff Jane Roe 1
The facts alleged in the complaint are sufficient to
state a plausible Title IX claim based on MSU's
response to Jane Roe l's circumstances.
Defendants do not challenge their knowledge of the
alleged sexual assault of Jane Roe 1. Plaintiffs allege
Jane Roe 1 reported the assault to the MSU Police and
to appropriate MSU officials. (Compl. ¶¶ 71-72.)
Plaintiffs' allegations are sufficient to plead the
deliberate indifference element. Taken as true, the
allegations show that Defendants' response was
unreasonable in light of the known circumstances. The
investigation took approximately nine months. The
explanations for the delay provided by the investigator
appear questionable. Jane Roe 1 and her mother had to
reach out to the investigators, every few weeks to check
on the status of the investigation. The Court infers that

56a

John Doe 2 remained on campus, at least for a portion
of the semester.29 (Comp'. TT 75 and 90.)
Plaintiffs' allegations are sufficient to show that
MSU's deliberate indifference deprived Jane Roe 1 of
educational opportunities. Taken as true, the
inadequate manner in which MSU conducted its
investigation created a situation where Jane Roe 1 did
not feel safe on campus and avoided it at night, and led
her to be absent or late to classes.
C. Plaintiff Jane Roe 2
The facts alleged in the complaint do not state a
plausible Title IX claim against Defendants based on
Jane Roe 2's circumstances.
Defendants do not challenge their knowledge of the
alleged sexual assault of Jane Roe 2. Plaintiffs allege
Jane Roe 1 reported the assault to appropriate MSU
officials. (Compl. ¶ 93.)
Taken as true, the complaint does not allege facts
establishing that MSU's actions were deliberately
indifferent. The investigation took approximately six
months. During the investigation, John Doe 3 was
subject to a personal protection order granted to Jane
Roe 2. Plaintiffs do allege that Jane Roe 2 did encounter
29 Defendants cite paragraph 75 for the proposition that "John
Doe 2 was no longer enrolled at MSU by the time that she made
her report, and never returned." (Def. Br. at 16 PageID.300.) The
relevant portion of paragraph 75 does not support Defendants'
proposition. It states "[fjor the first time, she did mention that
John Doe 2 had withdrawn from MSU for the time being."
(Compl. ¶ 27.) Jane Roe 1 filed her report on February 25. Paragraph 75 discusses a conversation in late April.

57a
her assailant once during the investigation, but provide
no context or description of the encounter. Plaintiffs do
not allege that Jane Roe 3 suffered any additional
harassment after she made her initial report. John Doe
3 was ultimately expelled. After he was expelled, MSU
allowed him to return once to attend a graduation
ceremony. And, MSU warned Jane Roe 2 that John Doe
was allowed to be there.
Finally, taking the allegations in the complaint as
true, Jane Roe 2 has not alleged sufficient facts to show
that she was deprived of educational opportunities
because of MSU's deliberate indifference. She has not
alleged facts to show that MSU's response to her report
caused the drop in her grades, or her decision to stop
playing rugby, or any of the other events alleged in the
complaint.
D. Plaintiff Gross
The facts alleged in the complaint state a plausible
Title IX claim against Defendants based on Gross's
circumstances.
Defendants do not challenge their knowledge of the
alleged sexual assault of Gross's circumstances.
Plaintiffs allege Gross reported the assaults to
appropriate MSU officials. (Compl. ¶ 144.)
Taking the allegations in the complaint as true,
Plaintiffs have alleged sufficient facts to establish that
MSU's response to Gross's report was unreasonable in
light of known circumstances. This was at least the
second time MSU had to investigate John Doe; MSU
had already investigated John Doe for the allegations

58a
made by Kollaritsch.30 The initial investigation,
hearing, and appeals took more than one year to
complete. Although the final decision was initially
upheld after an appeal, John Doe's expulsion was
subsequently set aside and second investigation was
permitted. Throughout the investigation, John Doe
remained on campus, although the complaint does not
allege whether John Doe was subject to any restrictions
on his contact with Gross.
Taking the allegations in the complaint as true,
Plaintiffs have established that Gross was deprived of
educational opportunities because of MSU's deliberate
indifference. Because of the manner in which MSU
investigated her report, she stopped participating in
extra-curricular activities. Because of the stress caused
by the investigation, Gross had problems in classes and
had to seek accommodations from professors.
E. Claims Arising from the DCL, the Resolution
Agreement, and a Policy of Inaction
To the extent Plaintiffs' Title IX claims rely on
standards identified in the DCL, in the Resolution
Agreement, or by a policy of inaction, those claims must
be dismissed. In various parts of the complaint,
Plaintiffs assert that MSU's investigations violated
standards identified in the DCL or in MSU's own
policies, as reflected in the Resolution Agreement. In
their response to the motion, Plaintiffs argue their Title
30 Plaintiffs allege John Doe also assaulted a female member of
the Reserve Officer's Training Corps (ROTC). (Compl. 1111136 and
144.) Plaintiffs do not allege, however, that MSU was aware of
the assault against the ROTC member.

59a
IX claims can be based on a policy of inaction in
response to known risks of sexual harassment.
An institution's failure to follow published
procedures will not necessarily establish deliberate
indifference. Courts have generally not allowed
plaintiffs to show deliberate indifference when a
university does not follow the guidance suggested by the
Department of Education's Dear Colleague Letter. See
Butters v. James Madison Univ., 208 F. Supp. 3d 745,
757-58 (W.D . Va. 2016) (collecting cases). The
reasoning in those cases is perguasive. The DCL states
that it is a standard for administrative enforcement for
cases where plaintiffs are seeking injunctive relief. Id.
The standard contained in the DCL is a negligence
standard, not a deliberate indifference standard. See id.
The failure of a school to follow its own policies and
regulations, standing alone, does not establish
deliberate indifference. Sanches v. Carrollton-Farmers
Indep. Sch. Dist., 647 F.3d 156, 169 (5th Cir. 2011)
(quoting Gebser, 524 U.S. at 291-92); see, e.g., Oden v.
Northern Marianas Coll., 440 F.3d 1085, 1089 (9th Cir.
2006) (failing to follow school policy to hold a hearing
within 30 days, where the hearing did not occur for 9
months, was not deliberate indifference because the
victim, at least in part, caused the delay). The
Resolution Agreement issued in August 2015, after the
events giving rise to each of the plaintiffs claims. MSU
could not be deliberately indifferent to guidelines
identified in the Resolution Agreement when the
document did not exist when the underlying
investigations were occurring.

60a

Finally, in their response brief, Plaintiffs assert a
theory of deliberate indifference based on a policy of
inaction by MSU in light of known risks of sexual
harassment, borrowing the theory from municipal
liability cases. See Simpson v. Univ. of Colorado
Boulder, 500 F.3d 1170, 1178-79 (10th Cir. 2007)
(involving a university policy for hosting potential
student athletes that created circumstances where
sexual assaults occurred and the administration had
been warned by the district attorney). The Sixth Circuit
has not published any opinion adopting a policy of
inaction theory, although at least one district court
within this circuit found the reasoning in Simpson
persuasive. See Doe v. Univ. of Tennessee, 186 F. Supp.
3d 788, 804-05 (M.D. Tenn. 2016).
Plaintiffs have not pled facts sufficient to support a
policy of inaction theory of deliberate indifference for a
Title IX claim. Plaintiffs focus on MSU's alleged failure
to publish and distribute information about its sexual
harassment policies and procedures. Gebser rejected
this avenue for showing discrimination under Title IX.
In Gebser, the Court rejected the argument that a
failure to promulgate and publicize an effective policy
and grievance procedure for sexual harassment, as
required by the Department of Education's regulations,
would constitute a Title IX deliberate indifference
claim. 524 U.S. at 291-92. And, the circumstances in
Simpson and Doe v. University of Tennessee are distinct
from the circumstances at MSU. In Simpson and Doe,
the institutions created the circumstances where the
sexual assaults occurred. Plaintiffs here have not
identified an official policy of MSU that created

61a
situations where sexual harassment or sexual assaults
had occurred in the past, and where the risk had been
ignored.

In their motion, Defendants argue that the
complaint fails to allege facts sufficient to state a claim
for violations of the Due Process Clause.
In their response, Plaintiffs voluntarily dismiss
their Due Process claims. (ECF No. 39 Pl. Resp. at 22
n.8 PageID.438.) Plaintiffs have not identified any
authority which would permit them to withdraw a claim
without prejudice after Defendants filed a motion to
dismiss. See, e.g., Fed. R. Civ. P. 41(a)(1)(A) (permitting
voluntary dismissal of actions by a plaintiff if the
dismissal occurs before the opposing party files an
answer or motion for summary judgment). Plaintiffs did
not file an amended complaint removing their Due
Process claims. See Fed. R. Civ. P. 15(a)(1). Because
Defendants have moved to dismiss Plaintiffs' Due
Process claims, and because Plaintiffs have not
responded to that portion of the Motion, Defendants'
motion to dismiss the Due Process claims will be
granted.

Defendants also argue that the complaMt fails to
allege fads sufficient to state a claim for violations of
the 'Equa1 Piotection Clause.
Claims for violations of constitutional rights may be
brought under 42 U.S.C. § 1983. To state a § 1983 claim
and avoid dismissal under Rule 12(b)(6), a plaintiff

62a
must plead facts to support two elements: (1) there was
the deprivation of a right secured by the United States
Constitution, and (2) that the deprivation was caused
by a person acting under color of state law. Wittstock v.
Mark A. Van Sile, Inc., 330 F.3d 899, 902 (6th Cir.
2003). "[T]he existence of a constitutional right must be
the threshold determination in any section 1983
claim[.]" Claiborne Cty., 103 F.3d at 509. The Sixth
Circuit has "consistently held that damage claims
against government officials arising from alleged
violations of constitutional rights must allege, with
particularity, facts that demonstrate what each
defendant did to violate the asserted constitutional
right." Lanman v. Hinson, 529 F.3d 673, 684 (6th Cir.
2008) (italics in original). "Allegations of respondeat
superior do not sustain a § 1983 claim against state
employees in their individual capacities, meaning that
officials are personally liable for damages under that
statute 'only for their own unconstitutional behavior."'
Colvin v. Caruso, 605 F.3d 282, 292 (6th Cir. 2010)
(quoting Leach v. Shelby Cty. Sheriff, 891 F.2d 1241,
1246 (6th Cir. 1989)).
To state an Equal Protection claim under § 1983, the
plaintiff must allege facts establishing that he or she
was a victim of intentional and purposeful
discrimination. Webarg v. Franks, 229 F.3d 514, 522
(6th Cir. 2000) (collecting cases); see Washington v.
Davis, 426 U.S. 229, 239 (1976) (discussing race
discrimination claims brought under the Fourteenth
Amendment's Equal Protection Clause). "The Sixth
Circuit recognizes two methods of proving an equal
protection violation based on a school official's response

63a
to peer to peer harassment: (1) disparate treatment of
one class of students who complain about bullying as
compared to other classes of students, and (2) deliberate
indifference to discriminatory peer harassment." Stiles,
819 F.3d at 851-52 (citing Shively v. Green Local Sch.
Dist. Bd. of Educ., 579 F. App'x 348, 356-57 (6th Cir.
2014) and Williams v. Port Huron Sch. Dist., 455 F.
App'x 612, 618 (6th Cir. 2012)). The required
discriminatory intent for an equal protection claim may
be established by showing that school officials were
deliberately indifferent to allegations of peer
harassment. Port Huron, 455 F. App'x at 618.
The deliberate indifference claim for a § 1983 equal
protection claim is "substantially the same" as the
deliberate indifference standard used in Title IX cases.
Stiles, 819 F.3d at 852 (quoting Paint Valley Local Sch.
Dist., 400 F.3d at 369). To state a deliberate indifference
claim under the Equal Protection clause, the plaintiff
must allege facts showing she was subjected to
discriminatory peer harassment. Id. (collecting cases).
The plaintiff must then allege facts establishing that
school officials responded to the discriminatory peer
harassment with deliberate indifference. Id.
A. Intentional Discrimination
Defendants' argue that Plaintiffs did not allege
intentional discrimination because of their status as
members of a protected group. Defendants' motion
overlooks Sixth Circuit precedent which permits a
plaintiff to show an Equal Protection violation through
deliberate indifference to reports of peer sexual
harassment. Binding authority allows a plaintiff to
establish an Equal Protection claim by showing "either

64a
that the defendants intentionally discriminated or
acted with deliberate indifference." Stiles, 819 F.3d at
852 (quoting Shively, 579 F. App'x at 357). For their
Equal Protection claim, Plaintiffs' rely on the
alternative theory, each individual defendant's conduct
amounted to deliberate indifference.
B. Deliberate Indifference
An individual defendant who is a government
official may not be held liable under § 1983 under a
theory of respondeat superior. Each individual must
have acted in an unconstitutional manner. Plaintiffs
have to show that each individual defendant
demonstrated deliberate indifference to the peer
harassment that occurred after the sexual assaults.
1. Defendant Simon
Plaintiffs have not alleged sufficient facts to show
that Simon was deliberately indifferent. Simon's
involvement is mentioned only in paragraphs 103 and
148 of the complaint.31 None of those paragraphs allege
facts suggesting deliberate indifference. Paragraph 103
provides background for Jane Roe 2's claim. Simon is
alleged to have said that it was a mistake to allow John
Doe 3 to return to campus. Plaintiffs have not alleged
that Simon made the decision to allow John Doe 3 to
return to campus. Plaintiffs have not alleged that
Simon participated in the investigation. Paragraph 148
provides background information for Gross's claim. In
31 Not including a caption or heading, the Court cannot find
where Plaintiffs even write Simon's name in their response to the
motion to dismiss, let alone describe any conduct or inaction that
might provide a basis for a claim against Simon.

65a
that paragraph Plaintiffs allege that Gross emailed
Simon.to express concerns about how MSU handled the
investigation. This allegation does not establish that
Simon participated in the investigation.
2. Defendant Youatt
Plaintiffs have not alleged sufficient facts to show
that Youatt was deliberately indifferent. Youatt is
mentioned in only two paragraphs in the complaint.32
In paragraph 4, Youatt is named as a defendant and her
job duties are described. In paragraph 173, Youatt is
identified as one of the defendants to Count 2. The
complaint contains no allegations about any action
taken by Youatt. The complaint does not allege that
Youatt had knowledge of any of the events giving rise to
any of the claims brought by Plaintiffs.
3. Defendant Maybank
Plaintiffs have alleged sufficient fact's for an EqUal
Protection claim against Defendant Maybank for her
deliberate indifference to Gross's report, but not for
deliberate indifferenOe to either Kollaritsch's report .or
Jane Roe 2's report. Maybarik is mentioned in
paragraphs 64 and 65 (Kollaritsch background), 97 and
102 (Jane Roe 2 background), and 155 (Gross
background).
For the Equal Protection claim, broUght by Gross,
Plaintiffs haVe alleged sufficient facts to show that
Maybank was deliberately indifferent. In paragraph
Similar to the lack of information abotit Simon the Plaintiffs'
response to the motion, Youatt's name does not appear in the
brief, outside of the caption or. heading.

32

66a
155, Plaintiffs allege, in November 2015, Maybank
informed Gross that the initial investigation and
conclusion would be disregarded and a new
investigation would be opened into Gross's allegations
against John Doe, which would be conducted by outside
counsel. At least in the complaint, no explanation for
this decision is provided. Assuming the allegations in
the complaint to be true, including the allegation that
John Doe sexually assaulted Gross three times and that
the initial appeal was denied, this decision was
unreasonable under the circumstances as a response to
Gross's allegation of a sexual assault.
For the Equal Protection claim brought by
Kollaritsch against Maybank, Plaintiffs have not
alleged sufficient facts to show deliberate indifference.
Kollaritsch contends she met with Maybank in August
2013 and told Maybank she did not feel safe on campus.
Two weeks later, Maybank emailed Kollaritsch,
"effectively refused to do anything," and told Kollaritsch
to contact MSU Police. The meeting occurred after John
Doe had been disciplined, after Kollartisch's retaliation
complaint and been resolved, and after Kollaritsch's
appeal was denied. These allegations do not show
deliberate indifference; Maybank's response was not
clearly unreasonable under the circumstances. The
investigation and appeals process had been completed,
and Maybank was relying on those proceedings. The
Court will not second guess Maybank's decision.
For the Equal Protection claim brought by Jane Roe
2 against Maybank, Plaintiffs have not alleged
sufficient facts to show deliberate indifference. In
paragraph 97, Plaintiffs allege as Maybank upheld the

674
expulsion of John Doe 3. This allegation cannot be the
basis of a claim for deliberate indifference. Plaintiffs'
claim must arise from the decision to allow John Doe 3
on campus for a graduation ceremony, the allegation in
paragraph 107. It is not clear if Maybank made the
decision to allow John Doe 3 on campus, or if Maybank
denied Jane Roe 2's appeal of that decision. Neither
decision amounts to deliberate indifference. MSU
alerted Jane Roe 2 that John Doe 3 had been given leave
to be on campus. Jane Roe 2 does not allege that she
encountered John Doe 3 during this brief window.
VII.
Defendants assert that they are immune from
PlaintiffS' constitutional claims. Defendants assert that
MSU Trustees are immune under the Eleventh
Amendment. Defendants assert that the individual
defendants are entitled to qualified immunity.
A. MSU Trcistees
MSU Trustees are immune under the Eleventh
Amendment from Plaintiffs' constitutional claims. In
their response, Plaintiffs concede that "Defendant
Regents" are an arm of the state and are immune from
liability. (ECF No. 39 Pl. Resp. at 23 n.9 PageID.439.)
Accordingly, the constitutional claims 'brought against
Defendant MSU Trustees will be dismissed.
B. Qualified Immunity
Because Plaintiffs have withdrawn their Due
Process claims, the Court considers only the Equal
Protection claims.

68a
"[G]overnment officials performing discretionary
functions generally are shielded from liability for civil
damages insofar as their conduct does not violate
clearly established statutory or constitutional rights of
which a reasonable person would have known." Harlow
v. Fitzgerald, 457 U.S. 800, 818 (1982). Qualified
immunity is a legal question for the court to resolve.
Everson, v. Leis, 556 F.3d 484, 494 (6th Cir. 2009) (citing
Elder v. Holloway, 501 U.S. 510, 516 (1994)). When
resolving a governmental employee's assertion of
qualified immunity, the court determines (1) whether
the facts the plaintiff has alleged or shown establishes
the violation of a constitutional right, and (2) whether
the right at issue was clearly established at the time of
the incident. Stoudemire v. Michigan Dep't of Corr., 705
F.3d 560, 567 (6th Cir. 2013) (citing Pearson v.
Callahan, 555 U.S. 223, 232 (2009)).
Once the qualified immunity defense is raised, the
plaintiff bears the burden of demonstrating both that
the challenged conduct violates a constitutional or
statutory right and that the right was so clearly
established at the time that "'every reasonable officer
would have understood that what he [was] doing
violate[d] that right."' T.S. v. Doe, 742 F.3d 632, 635
(6th Cir. 2014) (quoting Ashcroft v. al-Kidd, 563 U.S.
731, 741 (2011)). "Qualified immunity gives government
officials breathing room to make reasonable but
mistaken judgments about open legal questions. When
properly applied, it protects 'all but the plainly
incompetent or those who knowingly violate the law."'
al-Kidd, 563 U.S. at 743 (quoting Malley v. Briggs, 475
U.S. 335, 341 (1986)).

69a
In determining whether a law is clearly established,
ordinarily this Court looks to decisions of the Supreme
Court and the Sixth Circuit. Carver v. City of
Cincinnati, 474 F.3d 283, 287 (6th Cir. 2007); see Wilson
v. Layne, 526 U.S. 603, 617 (1999). If controlling
authority does not clearly establish the law, this Court
may consider other circuit authority. Andrews v.
Hickman Cty., Tennessee, 700 F.3d 845, 853 (6th Cir.
2012). Although a prior case need not be directly on
point, "existing precedent must have placed the
statutory or constitutional question beyond debate." alKidd, 563 U.S. at S.Ct. at 741. The clearly established
prong will depend "substantially" on the level of
generality at which the legal rule is identified.
Anderson v. Creighton, 483 U.S. 635, 639 (1987). The
right must be clearly established in a particularized
sense, and not at a general or abstract sense. Id. at 640.
"This standard requires the courts to examine the
asserted right at a relatively high level of specificity and
on a fact-specific, case-by-case basis." Bletz v. Gribble,
641 F.3d 743, 750 (6th Cir. 2011) (edits omitted)
(quoting Cope v. Heltsley, 128 F.3d 452, 458-59 (6th Cir.
1997)).
The Court has already considered whether the
allegations in the complaint • establish that the
individual defendants' conduct constituted deliberate
indifference for an Equal Protection claim. For
Defendants Simon and Youatt, the allegations were
insufficient to establish deliberate indifference.
Because the allegations do not establish an Equal
Protection violation, their requests • for qualified
immunity are moot. See Adams v. City of Auburn Hills,

70a
336 F.3d 515, 520 (6th Cir. 2003); Ahlers v. Schebil, 188
F.3d 365, 374 (6th Cir. 1999); Mays v. City of Dayton,
134 F.3d 809, 815 (6th Cir. 1998).
Defendant Maybank is not entitled to qualified
immunity for the Equal Protection claim brought by
Gross. Plaintiffs have established that the relevant
rights were clearly established by 2012. By 1999,
education administrators would have known that
deliberate indifference to claims of peer harassment
violates Title IX. See Davis, 526 U.S. at 648. In 2012,
before any of these incidents occurred, the Sixth Circuit
issued its opinion in Williams v. Port Huron School
District. Although that case involved racial
discrimination, the panel addressed a claim that
individual government officials may violate a plaintiffs
Equal Protection claim through deliberate indifference
to claims of peer harassment. The defendants raised
qualified immunity as a defense, and the court found
that each defendant was not deliberately indifferent.
The court then declined to determine whether the right
was clearly established. Port Huron, 455 F. App'x at
620. And, in August 2014, in Shively v. Green Local
School District Board of Education, the court denied a
claim for qualified immunity, finding that the "equal
protection right to be free from student-on-student
discrimination is well-established." 579 F. App'x at 538.
The Shively panel cited Williams, a 1999 published case
from the Tenth Circuit, and a 2003 published case from
the Ninth circuit. Id. The Williams and Shively opinions
confirm that Plaintiffs' Equal Protection right was
clearly established at the time of these incidents.

71a

Defendants assert Plaintiffs' ELCRA claims are
barred by the Eleventh Amendment. In their response,
Plaintiffs' concede that their ELCRA claims are
improper and voluntarily dismiss the claims. (ECF No.
39 Pl. Resp. at 1 n.1 PageID.417.) The Court grants
Defendants' motion for the ELCRA claims for the same
reasons the Court grants Defendants' motion for the
Due Process claims.
Defendants have demonstrated that some of
Plaintiffs' claims cannot survive a motion to dismiss.
Because Plaintiffs have conceded their Due Process
claims, their ECLRA claims, and their claim against the
Trustees for Equal Protection, those claims will
dismissed. Jane Roe 2's Title IX claim must be
dismissed because the complaint does not allege facts to
show that MSU's response to her report was
deliberately indifferent or that she was deprived of
educational opportunities as the result of deliberate
indifference. Plaintiffs' Title IX claims based on the
DCL, the Resolution Agreenient, and a policy of inaction
in response to known dangers are dismissed. The DCL
does not set forth standards that can be used for a Title
IX claim and the ResolUtion Agreement was not issued
when these events occurred. Plaintiffs have not alleged
facts to support a claim based on a policy of inaction in
response to known dangers, as that theory has been
described in other Title IX opinions. The Equal
Protection claims brought against Simon and Youatt
are dismissed. The complaint does not plead sufficient
facts to show either defendant acted with deliberate

72a
indifference. For the same reason, the Equal Protection
claims brought by Kollaritsch and Jane Roe 2 against
Maybank are dismissed. Because the law was clearly
established at the time, Defendant Maybank's request
for qualified immunity for the Equal Protection claim is
denied. The following claims are not dismissed: (1)
Kollartich's Title IX claim against MSU Trustees, (2)
Jane Roe l's Title IX claim against MSU Trustees, (3)
Gross's Title IX claim against MSU Trustees, and (4)
Gross's Equal Protection claim against Maybank.

73a
ORDER
For the reasons provided in the accompanying
Opinion, Defendants' motion to dismiss (ECF No. 28) is
GRANTED IN PART and DENIED IN PART.
The following claims are DISMISSED with
prejudice: (1) Plaintiffs' Due ProcesS claims, (2)
Plaintiffs' ELCRA claims, (3) Plaintiffs' Equal
Protection claim against Defendant Trustees, (4) Jane
Roe 2's Title IX claim against Defendant Trustees, (5)
Plaintiffs' Title IX claims arising from the DCL, the
Resolution Agreement, and MSU Trustee's policy of
inaction, (6) Plaintiffs' Equal Frotection claims against
Defendant Simon, (7) Plaintiffs' Equal 'Protection
,claims against Defendant Youatt, (8) Plaintiff
Kollaritsch's Equal Protection claim against Defendant
Maybank, and (9) Plaintiff Jane Roe 2's Equal
,Protection Claim against Defendant Maybank.
Also, Defendant Maybank's request for qualified
immunity is DENIED.
IT IS SO ORDERED.
Date: November 2, 2017

/s/ Paul L. Maloney

Paul L. Maloney
United States District
Judge

74a
Nos. 17-2445/18-1715
UNITED STATES COURT OF
APPEALS FOR THE SIXTH
CIRCUIT

1- FILED

Feb 03, 2020
DEBORAH S.
HUNT, Clerk 2

EMILY KOLLARITSCH, ET AL.,

)
)
Plaintiffs-Appellees,
)
)
v.
)
) ORDER
MICHIGAN STATE UNIVERSITY
)
BOARD OF TRUSTEES; DENISE MAY- )
BANK, IN HER INDIVIDUAL AND OF- )
FICIAL CAPACITY AS VICE PRESIDENT FOR.STUDENT AFFAIRS,
Defendants-Appellants.

BEFORE:
BATCHELDER, ROGERS, and
THAPAR, Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the cases. The petition then
was circulated to the full court. No judge has requested
a vote on the suggestion for rehearing en banc.

76a

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
EMILY KOLLARITS CH;
SHAYNA GROSS; JANE ROE 1
and JANE ROE 2;
Plaintiffs,

Case No.
1:15-cv-01191

v.
Hon. Paul L.
Maloney
MICHIGAN STATE UNIVERSITY BOARD OF TRUSTEES;
DENISE MAYBANK, in her individual and official capacity as
Vice President for Student Affairs;
LOU ANNA SIMON, in her
individual and official capacity
as President of the Michigan
State University; and KAPPA
SIGMA FRATERNITY,
Defendants.

77a

Jennifer B. Salvatore
(P66640)
NACHT, ROUMEL &
SALVATORE, P.C.
Co-counsel for Plaintiffs
101 N. Main St.,
Suite 555
Ann Arbor, Michigan
48104
(734) 663-7550
jsalvatore@nachtlaw.com

Irwin M. Zalkin (#89957)
Alexander S. Zalkin
(#280813)
THE ZALKIN LAW
FIRM, P.C.
W.D. of Mich. Admission,
Pending
Co-Counsel for Plaintiffs
12555 High Bluff Drive,
Suite 301
San Diego, CA92130
(858) 259-3011
irwin@zalkin.com
alex@zalkin.com

FIRST AMENDED COMPLAINT
AND JURY DEMAND
Plaintiffs, through their attorneys, submit this First
Amended Complaint and state the following:
PARTIES AND JURISDICTION
Defendant Michigan State University Board
of Trustees ("Trustees") operates and governs Michigan
State University ("MSU"), a public, state university
located in Lansing, MI.
Defendant Denise Maybank ("Maybank") is,
and was at all times relevant, the Vice President for
Student Affairs at MSU. Plaintiffs are informed and believe and thereon allege that as Vice President of Student Affairs, Defendant Denise Maybank is responsible

78a
for participating in the making of policies, and communicating and enforcement of all policies and practices of MSU with respect to diversity and inclusion, including the avoidance of gender based discriminatory
practices by MSU and its educational and other student
programs.
Defendant Lou Anna Simon ("Simon") is, and
was at all times relevant, the President of MSU. Plaintiffs are informed and believe and thereon allege that
as President of MSU, Defendant Lou Anna Simon is responsible for managing and directing all of the affairs
of MSU. She is responsible for issuing directives, and
executive orders consistent with the policies of Defendant Trustees, including policies and practices associated with the avoidance of gender based discrimination
associated with the schools educational and other student programs.
Defendant June Pierce Youatt, at all times
relevant, was either the Acting Provost or the Provost
and Executive Vice President for Academic Affairs of
MSU. Plaintiffs are informed and believe, and thereon
allege, that in all of these positions she oversaw or overseas issues involving the management of MSU, including oversight of academic policies, and the quality of
student learning. Defendant Youatt is the principal academic officer of MSU and administer of the various
colleges, special units and academic support facilities.
Defendant Youatt is responsible for insuring that administrative procedures preserve academic freedom
and insure academic responsibility.
Defendant Paulette Granberry Russell ("Russell") at all times relevant was MSU's appointed Title

79a
IX Coordinator. As the designated Title IX Coordinator
Russell was the federally mandated employee of MSU
responsible for implementing and enforcing the requirements of Title IX (20 U.S.C. Sec 1681 Et. Seq.) at
MSU including insuring the avoidance of gender based
discrimination, conducting the investigation of any
complaint of non-compliance with Title IX, allegations
of conduct prohibited by Title IX, including student on
student sexual harassment and sexual violence, taking
remedial measures to avoid subjecting students to sexual harassment, and enforcing measures to eliminate a
hostile environment based on a person's gender. On information and belief, Plaintiffs allege that Russell, at
all times relevant herein, performed her duties in accordance with the policies and practices established by
or that were allowed to exist at MSU by Defendants
Trustees, Maybank, Simon and Youatt.
Defendant Kappa Sigma ("Kappa Sigma") is
an international fraternity, headquartered in Charlottesville, VA.
Defendant Delta Psi ("Local Chapter") is an
organization of unknown legal form and agent of Kappa
Sigma operating in Michigan. Defendant Local Chapter
is chartered, governed, managed and controlled by Defendant Kappa Sigma (together, collectively the "Fraternity Defendants"). Defendant Kappa Sigma exercises control over the social activities, assets, risk management, and members of Local Chapter.
Plaintiff Emily Kollaritsch ("Kollaritsch")
was, at all times relevant, a student at MSU.

80a

Plaintiff Shayna Gross ("Gross") was at all
times relevant, and still is, a student at MSU.
Plaintiff Jane Roe 1 was, at all times relevant, and still is, a student at MSU.
Plaintiff Jane Roe 2 was, at all times relevant, and still is, a student at MSU.
Michigan State University receives federal financial assistance and is therefore subject to the dictates of Title IX.
This court has subject matter jurisdiction
over this action pursuant to 28 U.S.C. § 1331 and over
state law claims pursuant to 28 U.S.C. § 1367.
Venue in this Court is proper under 28 U.S.C.
§ 1391(b) because the events giving rise to this claim
took place in this judicial district, and Defendants reside in this judicial district.
BACKGROUND FACTS RELEVANT TO ALL
COUNTS
The Trustees, by the Michigan state constitution, are vested with the authority to supervise, control,
and govern MSU.
The Office of Civil Rights ("OCR"), a division
of the United States Department of Education ("DOE"),
is responsible for the implementation, interpretation,
and enforcement of Title IX.
The OCR has promulgated numerous documents outlining the requirements for an educational institution to be in compliance with Title IX, including the
Dear Colleague Letter of April 4th, 2011 ("DCL"), which

81a
deals specifically with peer-on-peer sexual harassment
and sexual assault.
The DOE was authorized by Congress to
promulgate regulations to govern the implementation,
interpretation and enforcement of Title IX.
The DCL is a "significant guidance document," intended to provide educational institutions
with clarity as to the requirements they must follow in
order to be in compliance with the DOE. Pursuant to 72
Fed. Reg. 3432, a "guidance document" is "an agency
statement of general applicability and future effect,
other than a regulatory action ... that sets forth a policy
on a statutory, regulatory, or technical issue or an interpretation of a statutory or regulatory issue." A "significant guidance document" is "a guidance document
disseminated to regulated entities or the general public
that may reasonably be anticipated to ... (iv) Raise
novel legal or policy issues arising out of legal mandates, the President's priorities, or the principles set
forth in Executive Order 12866, as further amended."
The DCL specifically outlines the requirements that educational institutions must follow regarding peer-on-peer sexual harassment and assault.
A failure to adhere to the requirements outlined in the DCL could result in the loss of federal funding for an educational institution.
In 2015, the OCR initiated an investigation
into MSU to determine if MSU had violated their requirements under Title IX with regard to the handling
of complaints of sexual harassment and sexual assault
on campus.

82a

23.
In September 2015, the OCR released its report regarding the findings of its investigation into
MSU. The OCR found that MSU:
Failed to notify students and employees of the
name or title of the Title IX Coordinator;
Failed to notify students and employees of
MSU's notice of non-discrimination;
Had grievance procedures that were not in
compliance with Title IX;
Failed to respond to reports of sexual harassment and sexual violence in a prOmpt and equitable manner, thereby causing and contributing to a sexually hostile environment on
campus.
At the time of the conduct alleged herein,
MSU's official policy was to complete an investigation
into a report of sexual harassment and/or sexual assault within ninety days of the formal report.
Based on information and belief, MSU consistently, and virtually always, failed to complete their
sexual harassment and/or assault investigations within
the ninety-day time period prescribed in MSU's official
policies.
At the time of the conduct alleged herein,
MSU had an official policy against retaliation for any
person that filed a complaint of sexual assault and/or
sexual harassment.
At the time of the alleged conduct herein,
MSU had a policy to always take interim measures to

83a
protect the complainant, based on the information reported, whether or not the claimant wished to proceed
with a formal investigation. Some of the interim
measures recognized by MSU were:
No contact orders;
Housing rearrangement for either party;
No trespass orders;
Interim suspensions; and
Facilitating class changes for either party.
FACTS'APPLICABLE TO PLAINTIFF KOLLARITSCH
Between October 1, 2011 and October 14,
2011, John Doe 1 attempted to rape Plaintiff .Kollaritsch in his dorniitory room at Case Hall, a dormitory
owned and operated by MSU.
On October 15, 2011, John Doe 1 sexually dssaulted Plaintiff Kollaritsch in the stands at an MSU
football game.
On Jantiary 30, 2012, KollaritsCh reported
her sexual assaults to the MSU Police Department.
Shortly afterward, the.. MSU Police Department reported the assaults to the MSU Office of Inclusions ("I3").
On February 3, 2012, Kollaritsch met with
Amanda Garcia-Williams ("GarciaWilliams"), MSU's
Title IX Coordinator, to formally commence a university investigation, against John Doe.

84a

Upon filing a formal complaint, MSU did not
provide any accommodations to ensure that Kollaritsch
would not encounter John Doe on campus, and John
Doe was allowed to remain on campus, unrestricted,
throughout the pendency of MSU's investigation.
John Doe and Kollaritsch lived in the same
dormitory, and frequented the same cafeteria and public areas around the dormitory.
Kollaritsch actually encountered John Doe on
multiple occasions, subsequent to filing her official report. On more than one instance, Kollaritsch encountered John Doe at a dormitory cafeteria. On each of
these occasions, Kollaritsch experienced a panic attack,
and was forced to leave the building, often crying, lightheaded, and significantly distraught.
Throughout the pendency of the investigation, Kollaritsch often slept in her friends' dormitory
rooms, because she feared sleeping in her own room.
Approximately 200 days after her official
complaint, Kollaritsch received an Investigation Report
from MSU. This was 140 days longer than what the
DOE considers reasonable for the length of an investigation, and 80 days longer than MSU's own policies require for the completion of an investigation.
The Investigation Report did not accurately
reflect the facts surrounding Kollaritsch's allegations of
sexual assault, and in fact, characterized the assaults
in a much less egregious manner.
The Investigation Report concluded that John
Doe had violated the MSU Sexual Harassment Policy,

85a
but did not specify which policies were violated. In
other words, John Doe was not explicitly found iespon7
sible for committing sexual assault.
Subsequently, John Doe was given the option
to accept or deny the allegations prior to a judicial hearing to determine a sanction for his conduct.
John Doe accepted responsibility.
Kollaritsch was discouraged by Garcia-Williams from attending the MSU judicial board hearing
to determine John Doe's sanction. The judicial board
did not read the victim impact statement Kollaritsch
prepared, nor was she ever informed of what the possible sanctions for John Doe could be.
Garcia-Williams specifically told Kollaritsch
prior to the hearing that no student had ever been expelled from MSU as a result of sexually assaulting another student.
On November 13, 2012; over nine months after Kollaritsch's report, Kollaritsch was finally informed that as a sanction for his violation of the MSU
Code of Conduct, John Doe was (1) put on a probationary status, (2) required to write an essay, and (3) required to obtain a letter from an employer organization
demonstrating that John Doe could abide by MSU's
rules of conduct. A "no contact" order was also issued to
John Doe.
Garcia-Williams specifically informed Kollaritsch that John Doe had five days to appeal the sanctions. Garcia-Williams did not inform Kollaritsch of her
right to appeal the sanction within five days as well.

86a
Because Kollaritsch has a hearing disability,
which was known to Garcia-Williams, on November
16th, 2012, Kollaritsch requested the official sanctioning documents to confirm the sanctions because it was
difficult for her to hear the sanctions over the phone.
After initially refusing, Garcia-Williams agreed to send
Kollaritsch the documents. The document was sent to
Kollaritsch on November 21, 2012, after her five-day
period to appeal had expired.
After John Doe received his sanctions, he began to retaliate against Kollaritsch by stalking, harassing and intimidating Kollaritsch, despite the "no contact" order in place.
Kollaritsch was stalked, harassed and/or intimidated by John Doe on at least nine occasions after
John Doe's sanctions had been levied.
Kollaritsch reported the additional harassment to her MSU advocate, Shari Murgittroyd
("Murgittroyd"). Murgittroyd responded by discouraging Kollaritsch from pursuing a formal complaint for
the additional harassment she was experiencing. Eventually, after Kollaritsch continued to report John Doe
l's stalking behavior to Murgittroyd, Murgittroyd relented, and encouraged Kollaritsch to report the retaliation to MSU.
On February 4, 2013, Kollaritsch contacted
Rick Shafer ("Shafer"), the Associate Director of MSU
Student Life, and Garcia-Williams to report John Doe's
retaliatory harassment. In response, Shafer specifically
discouraged Kollaritsch from reporting the harassment

87a
to the MSU police, and instead encouraged her to file a
complaint with the MSU Office of Inclusion.
MSU did not provide any interim safety
measures after Kollaritsch reported John Doe's retaliatory harassment to Shafer and Garcia-Williams.
Also in February 2013, Shafer admitted to
Kollaritsch that he had made a mistake in allowing
John Doe to remain in Case Hall, the same dormitory
building in which Kollaritsch was living. Shafer informed Kollaritsch that she shouldn't be so afraid of
John Doe, but did not offer to remove John Doe from the
dornaitory or restrict John Doe in any way. Instead,
Shafer offered to void Kollaritsch's housing contract
and encouraged her to move to an off-campus apartment.
On March 11, 2013, Kollaritsch filed a formal
complaint ("Retaliation Complaint") regarding John
Doe's retaliatory harassment with Garcia-Williams.
When Kollaritsch filed her Retaliation Complaint, Garcia-Williams told her that there was a difference between retaliation and just seeing John Doe, and
consistently suggested that Kollaritsch needed mental
health services. • ,
Because MSU took no measures to protect
Kollatitsch's safety following John Doe's sanction hearing; and through her Retaliation Complaint, Kollaritsch filed fora Personal Protection Order ("PPO") in
East Lansing District Court on March 13, 2013. The
next day, Kollaritsch was issued an ex-parte PPO by
Judge Ball.

88a

John Doe subsequently filed a motion to terminate the PPO, on the grounds that it was impacting
his life and he had no desire to contact Kollaritsch. On
June 4, 2013, Judge Ball denied John Doe's motion, ordering that the PPO remain in place because Kollaritsch was in reasonable danger.
On April 25, 2013, Murgittroyd told Kollaritsch that what had happened was not that bad because it was not actual rape. Murgittroyd also told Kollaritsch that Kollaritsch should be happy that John Doe
was sanctioned at all.
On May 28, 2013, Garcia-Williams e-mailed
Kollaritsch her investigative report regarding the Retaliation Complaint. Garcia-Williams had concluded
that no retaliation had occurred, and John Doe had not
further violated MSU's Code of Conduct.
Kollaritsch was not allowed to be involved in
the investigation process, nor was there a hearing. Further, Kollaritsch was never informed of her right or
ability to appeal the conclusions.
On June 4, 2013, Kollaritsch filed a written
response to Garcia-Williams' report, and deemed it an
appeal, because she had not been told if she could appeal the findings, or how to appeal the findings.
In her response, Kollaritsch pointed out that
Garcia-Williams had failed to account for several pieces
of evidence that Kollaritsch had provided. Further,
Garcia-Williams failed to interview one of Kollaritsch's
corroborating witnesses.

89a
Further, Kollaritsch presented evidence that
John Doe's corroborating witness was not credible.
During the hearing on John Doe's motion to terminate
the PPO, he produced a witness that, under oath, admitted that he could not identify Kollaritsch. This same
witness was used as a corroborating witness during
Garcia-Williams' investigation to show that John Doe
did not harass Kollaritsch. When Kollaritsch pointed
out that John Doe's witness was not credible, GarciaWilliams chose not to re-consider her final conclusions.
On June 25, 2013, Kollaritsch informed
Murgittroyd that Kollaritsch was fearful for her safety
on campus. Murgittroyd responded that Kollaritsch
should just transfer to another university.
On August 5, 2013, Kollaritsch met with Denise Maybank, MSU's Vice President of Student Affairs
and William Beekman, MSU's Vice President. Kollaritsch expressed her fear that she was not safe on
campus. Maybank asked Kollaritsch what she thought
the appropriate sanction should be for John Doe. Kollaritsch replied that John Doe should have been expelled or suspended.
On August 19, 2013, Kollaritsch received an
e-mail from Maybank effectively refusing to do any7,
thing about Kollaritich's complaints. Instead, she told
Kollaritsch to contact the MSU Police Department to
create a "safety plan." The MSU police department informed KollaTitsch that the "safety plan" consisted of
locking her door, locking her windows and closing her
blinds.

90a

Frustrated, and fearful for her safety, Kollaritsch took multiple temporary leaves of absence from
MSU. Kollaritsch did not attend classes during the fall
semester of her senior year, nor during the fall semester of the following year.
Defendant's and MSU's actions and inactions
in response to Kollaritsch's report of sexual assault, and
later, her report of retaliation, subjected her to additional harassment and created a sexually hostile environment for Kollaritsch on campus.
As a result of Defendant's and MSU's actions
and inactions in response to Kollaritsch's report of sexual assault, and later, her report of retaliation, Kollaritsch was deprived of several educational opportunities and/or benefits, including but not limited to:
A drop in her GPA;
The inability to sleep in her own dorm room;
Avoidance of all social activities on campus,
or sponsored by, or related to MSU;
The need to seek multiple academic accommodations from professors;
The need to take multiple temporary leaves of
absence from classes; and
An unusually large amount of absences from
classes.

BACKGROUND FACTS RELATED TO

91a
JANE ROE 1
Plaintiff Jane Roe 1 incorporates all paragraphs of this Complaint as if fully alleged herein.
On November 1, 2013, Plaintiff Jane Roe 1
was sexually assaulted on campus by John Doe 2, a fellow student at MSU.
Jane Roe 1 immediately went to Sparrow
Clinton Hospital to have a Sexual Assault Nurse Examiner ("SANE") examination performed. She also reported the sexual assault to the MSU Police Department.
On February 25, 2014, Jane Roe 1 filed a formal complaint with Garcia-Williams. At this meeting,
Garcia-Williams promised to interview two of Jane Roe
l's witnesses prior to the upcoming spring break.
On March 18, 2014, Jane Roe 1 contacted
Garcia-Williams for an update on the status of her complaint. On March 19, 2014 Garcia-Williams responded
that she was waiting for the results of Jane Roe l's
SANE examination. Jane Roe 1 asked if there was anything that could be done while Garcia-Williains was
waiting for the SANE report. Garcia-Williams said that
nothing could be done.
On April 18, 2014, Jane Roe 1 contacted Garcia-Williams again for an updatd on the status of her
complaint. On April 19, 2014, Garcia-Williams informed Jane Roe 1 that she was still waiting for the
SANE report. Again, Jane Roe 1 asked if there was an-

92a

ything she could do to expedite the process. Garcia-Williams informed Jane Roe 1 that there was nothing she
could do.
In late April of 2014, Jane Roe l's mother contacted Garcia-Williams on behalf of her daughter. Garcia-Williams again told Jane Roe l's mother that she
had yet to obtain the SANE report, nor had she interviewed John Doe 2. For the first time, she did mention
that John Doe 2 had withdrawn from MSU for the time
being.
On May 6, Jane Roe l's mother again contacted Garcia-Williams for an update. Garcia-Williams
informed Jane Roe l's mother that she had still not received the SANE report. Jane Roe l's mother then
called Sparrow Hospital to see why the SANE report
had not been sent. She was informed that the SANE
report had been sent to Garcia-Williams on March 14,
2014. The hospital indicated it would send the SANE
report to Garcia-Williams again. Jane Roe l's mother
then called Garcia-Williams to inform her that the
SANE report had already been sent, and was going to
be sent again.
On May 20, 2015, Jane Roe l's mother called
Garcia-Williams and left a message asking for a status
update.
On May 22 2015, after not receiving a call
back, Jane Roe l's mother called Garcia-Williams
again. Garcia-Williams was unavailable, so Jane Roe
l's mother drove to campus to speak with her directly.

93a
She was informed by the Title IX office that Garcia-Williams was in, but that she was busy with meetings all
day.
Later that day, Garcia-Williams called Jane
Roe l's mother and informed her that she had spoken
to John Doe 2, and the [sic] he was going to let her know
what he wanted to do with regard to the investigation
by May 30, 2014.
On May 30, 2014, the deadline for John Doe 2
to respond to Garcia-Williams, neither Jane Roe 1 nor
her mother were contacted by Garcia-Williams.
On June 30, 2014, Jane Roe l's mother called
Garcia-Williams for a status update. Garcia-Williams
told Jane Roe l's mother that Garcia-Williams was
working on setting up a time to meet with John Doe 2.
There were no consequences for John Doe 2 missing the
previous deadline to respond.
Jane Roe l's mother also expressed her, and
Jane Roe l's, concern that John Doe 2 could return to
campus without their knowledge. Jane Roe l's mother
also learned on this phone call that Garcia-Williams
had not reviewed the SANE report.
On July 21, 2014, Jane Roe l's mother called
Garcia-Williams for a status update. Garcia-Williams
did not pick up. Jane Roe l's mother then drove to campus, and was told again, that Garcia-Williams was in
the office, but was busy.
On July 30, 2014, Jane Roe l's mother had a
call with Garcia-Williams and Garcia-Williams' supervisor, Paulette Russell, Senior Advisor to the President

94a

for Diversity and Director of the Office for Inclusion and
Intercultural Initiatives. Jane Roe l's mother expressed her dissatisfaction with the way Garcia-Williams had handled her daughter's investigation, and expressed her desire to have someone else handle the investigation from that point on. Russell promised to look
into the matter and get back to Jane Roe l's mother by
the following Friday.
On August 1, 2014, the date on which Russell
promised to respond to Jane Roe l's mother, Russell did
not respond. Russell, in fact, never responded to Jane
Roe l's mother.
On November 4, 2014, Garcia-Williams emailed Jane Roe 1 letting her know that she had
drafted a report of findings related to Jane Roe l's investigation, which was available for Jane Roe 1 to pick
up at the Office of Inclusion. Frustrated with the-whole
process, Jane Roe 1 did not respond.
On December 15, 2014, Garcia-Williams emailed Jane Roe 1 and informed her that their investigation had determined that there was insufficient evidence to support a finding that John Doe 2 violated
MSU's Sexual Harassment Policy.
In total, MSU took approximately nine
months to complete the investigation.
Defendant's and MSU's actions and inactions
in response to Jane Roe l's report of sexual assault subjected her to additional harassment and created a sexually hostile environment for Jane Roe 1 on campus.

95a

The mere presence of John Doe 2 on campus,
after Jane Roe 1 made her report to MSU, also created
a hostile environment for Jane Roe 1 and made her vulnerable to further harassment.
As a result of Defendant's and MSU's actions
and inactions in response to Jane Roe l's report of sexual assault, Jane Roe 1 was deprived of several educational opportunities and/or benefits, including but not
limited to:
Being forced to move back home due to the
stress of dealing with the process;
Seeking academic accommodations from several professors;
Being absent from and tardy to class on a
larger basis than ordinary;
Avoiding MSU's campus at night; and
Avoiding virtually all social events on MSU's
campus, or in other ways affiliated with or
sponsored by MSU.
BACKGROUND FACTS RELATED TO
JANE ROE 2
Plaintiff Jane Roe 2 was sexually assaulted
by John Doe 3 on August 23, 2013.
Jane Roe 2 reported her assault to 13 on or
about August 26, 2013.
Garcia-Williams commenced an investigation, and interviewed John Doe 3 on September 3, 2013.

96a

On December 10, 2013, Garcia-Williams issued her report, finding John Doe 3 to have violated the
MSU Student Code of Conduct.
On January 29, 2014, six months after Jane
Roe 2 made her initial report, MSU conducted a hearing
to determine John Doe 3's sanction for sexually assaulting Jane Roe 2. Ultimately, John Doe 3 received a sanction of expulsion.
John Doe 3 appealed this decision to Maybank. On April 7, 2014, almost eight months after Jane
Roe 2 filed her initial complaint, Maybank upheld John
Doe 3's expulsion.
On May 5, 2014, Jane Roe 2 was notified by
MSU that John Doe 3 had received permission to return
to campus on May 10, 2014 to attend MSU's graduation
ceremony.
This decision was made without any consultation whatsoever with Jane Roe 2.
That same day, Jane Roe 2 formally appealed
this decision, as she intended to attend the graduation
ceremony herself.
On May 7, 2014, Jane Roe 2's appeal was denied.
Subsequently, Jane Roe 2 met with Maybank
to discuss Maybank's decision to allow John Doe 3 back
on campus. Maybank informed Jane Roe 2 that there
was nothing Maybank could do to prevent him from
coming back.

97a

After John Doe 3 had already been allowed
back on campus, upon learning about the events leading up to John Does 3's allowance back on campus,
President Simon said to Jane Roe 2 that it was a mistake that John Doe 3 was allowed to return back to campus.
By the time the entire process had played itself out, John Doe 3 was allowed to complete the semester. He subsequently transferred to another college,
without having to disclose his expulsion.
Throughout this entire process, John Doe 3
was allowed to remain on campus, subject to the terms
of a Personal Protection Order filed by Jane Roe 2. Nevertheless, Jane Roe 2 actually did encounter John Doe
3 on campus on at least one occasion.
Throughout the entire process, John Doe 3
was allowed to remain in his position as a front desk
employee of the dormitory building directly across from
the building in which Jane Roe 2 was an employee.
Moreover, by virtue of his position, John Doe 3 had access to all of Jane Roe 2's contact information, including
which dormitory and room number she lived in.
Defendant's and MSU's actions and inactions
in response to Jane Roe 2's report of sexual assault subjected her to additional harassment and created a sexually hostile environment for Jane Roe 2 on campus.
The mere presence of John Doe 3 on campus,
after Jane Roe 2 made her report to MSU, also created
a hostile environment for Jane Roe 2 and made her vulnerable to further harassment.

98a

109. As a result of Defendant's and MSU's actions
and inactions in response to Jane Roe 2's report of sexual assault, Jane Roe 2 was deprived of several educational opportunities and/or benefits, including but not
limited to:
A drop in her academic grades;
Being forced to register with the RCPD;
The need to seek multiple academic accommodations;
Avoiding all social events that did not take
place within her own dormitory building;
Withdrawing participation with MSU's rugby
team;
Withdrawing participation in events associated with her major, including but not limited
to fashion shows and galas; and
Frequently missing work due to meetings
with the administration regarding her complaint.
BACKGROUND FACTS RELEVANT TO THE
FRATERNITY DEFENDANTS
Defendant Kappa Sigma is structured and
governed according to its constitution, and by-laws.
Defendant Kappa Sigma is a hierarchical organization. At the top of the hierarchy is the Supreme
Executive Committee of the Fraternity. The Supreme
Executive Committee consists of the Worthy Grand
Master, the Worthy Grand Procurator, the Worthy

99a

Grand Master of Ceremonies, the Worthy Grand Scribe,
and the Worthy Grand Treasurer.
The Supreme `Executive Committee is the
governing body of the Kappa Sigma Fraternity, and is
empowered to make any rules or regulations for the fraternity.
Before a local chapter can be recognized as a
part of the Kappa Sigma Fraternity, it must first be
given a charter after a unanimous vote by the Supreme
Executive Committee.
The Supreme Executive Committee has the
power and authority to discipline a local chapter for,
among other infractions, (1) failure of a chapter or its
members to maintain standards of moral conduct acceptable to the. Supreme Executive Committee, (2) failure to comply promptly with any order issued by the
Supreme Executive Committee, and (3) any other reason that the Supreme Executive Committee deems necessary.
The Supreme Executive Committee has the
authority to impose any sanction against a local chapter as it deeps appropriate, up to, and including, expulsion of .a 1041 chaPter from the Kappa Sigma Fraternity.
The Kappa Sigma Fraternity is divided into
Districts. The Supreme Executive Committee appoints
a District Grand Master to Oversee each District.
The District Grand Master is responsible for
visiting each local chapter within his district. Upon
each visit, the District Grand Master must submit a full

100a

report to the Supreme Executive Committee detailing
the condition of the local chapter, including any matter
which he deems advisable to bring to the attention of
the Supreme Executive Committee.
If a local chapter is not operating properly,
the Supreme Executive Committee may give the District Grand Master the authority to remove some, or all,
of the officers of the local chapter and install a new set
of officers, or place the local chapter under the control
of a committee of alumni appointed by the District
Grand Master.
Not all college students can be a member of a
local Kappa Sigma chapter. Membership is limited to
males, over the age of 14, who have been selected as
worthy to join the Fraternity based on standards of
scholarship, conduct, morals and proficiency.
Once selected, each member is obligated to
abide by the Kappa Sigma Code of Conduct. According
to the Kappa Sigma Code of Conduct, "Each member of
Kappa Sigma Fraternity is responsible for seeing that
he: (1) Acts as a gentleman, setting an example of moral
behavior, (2) Conducts himself as a good student, good
neighbor, and good citizen, (3) Obeys the laws, rules
and regulations of his country, state or province, city
and county, and college or university, (4) Understands
and abides by the Constitution, By-Laws and Rules of
Kappa Sigma Fraternity, including the Standards of
Conduct, the acts and resolutions of Grand Conclaves,
and his Chapter's by-laws; and (5) Does not engage in,
permit or tolerate hazing, or the unlawful use of alcohol
or possession of controlled substances."

101a

The Code of Conduct also contains a Standards of Conduct which outlines the rules members must
follow with regard to several topics, including but not
limited to, hazing and the use of alcohol.
With respect to the use of alcohol, the Standards of Conduct forbids the making of alcohol available
to anybody that is under the legal drinking age.
A failure to abide by the Kappa Sigma Code
of Conduct, which includes the Standards of Conduct,
can result in the removal of the offending member from
the Kappa Sigma Fraternity.
Members are subject to an internal judicial
process, both at the local chapter level, and at the national fraternity level.
According to the Standards of Conduct, members of the local chapters are encouraged but not required, to engage in several educational programs relating to alcohol and other drug consumption.
Each local chapter is entitled to acquire property in its name. Each chapter acquiring property must
hold said property in Trust for the use and operation of
a Kappa Sigma local chapter, and for the use of the
Kappa Sigma Fraternity, subject to administrative action by the Supreme Executive Committee.
When a local chapter house is owned by the
Fraternity, that property must be used, maintained
and operated for the benefit of the Kappa Sigma fraternity.
Each local chapter is self-governed, that is,
each local chapter must make its own By-Laws, orders

102a
and regulations all of which must not be inconsistent
with Kappa Sigma's constitution, By-laws and Rules.
Despite requiring self-governance, the Fraternity Defendants fail to adequately and reasonably
train themselves and abide by such responsibilities,
particularly with respect to safety/risk management issues involving fraternity events, events inside the fraternity house, security, sexual abuse prevention, hazing, and the use and misuse of alcohol.
Statistics, insurance claims analyses, studies
and reports, and widely known incidents of catastrophic injury, rape, and death have for decades
demonstrated the foreseeable risk of dangerous injury
and death from poorly or wholly unsupervised fraternity events and fundamentally flawed risk management policies that rely upon self-government.
In the late 1980s, the Fraternity Insurance
Purchasing Group ("FIPG"), a consortium of Greek organizations organized to coordinate risk management
strategies, widely published that "fraternities and sororities were ranked by the National Association of Insurance Commissioners as the sixth worst risk for insurance companies just behind hazardous waste disposal companies and asbestos contractors."
In 1997, the National Interfraternity Council
("NIC"), then comprising 66 Greek national organizations with 5500 chapters on 800 campuses throughout
the United States and Canada, analyzed certain risks
associated with Greek organizations and housing and
concluded that improper fraternity oversight of alcohol
was "frighteningly pervasive."

103a
In 2001, the National Panhellenic Conference, representing sororities with more than 3 million
members at campuses nationwide, adopted a resolution
prohibiting its members from co-sponsoring alcohol-related events with fraternities. Most sorority houses
have been alcohol-free since their inception.
The national fraternity, Phi Delta Theta ("Phi
Delt"), implemented alcohol-free housing in 2000, and
has published (globally, on the internet, and in paperform) statistics and extensive information regarding
the resultant success in reducing injuries and death. In
"White Papers," authored by Dr. Edward G. Whipple in
2005 and 2010, Dr. Whipple documents over a ten-year
period a 64% reduction in the number of injury/death
claims against Phi Delt and a 94% reduction in its payouts, figures which correlate directly with a substantial
reduction in the amount and severity of injuries and
frequency of death.
Defendants Kappa Sigma, and Defendant
Delta Psi knew, or in the exercise of reasonable care
should have known, of such widely publicized and available information, studies and reports.
BACKGROUND FACTS RELATED TO
SHAYNA GROSS
Based on information and belief, John Doe
sexually assaulted another female student on campus
while both were participating in MSU's ROTC program.
At all times relevant, John Doe was a member, in good standing of MSU's chapter of Defendant
Kappa Sigma, Defendant Delta Psi.

104a

Plaintiff Gross is informed and believes and
theron [sic] alleges that prior to her sexual assault by
John Doe, other members of Defendant Delta Psi were
aware that John Doe had been disciplined by MSU for
sexually assaulting Plaintiff Kollaritsch.
Plaintiff Gross was an acquaintance of, and
friendly with John Doe.
In February of 2013, John Doe asked Gross,
via text message, if she wanted to hang out with him at
the Kappa Sigma fraternity house. Gross responded
that she would hang out with him, but made it clear
that it was "only as friends," to which John Doe agreed.
That night, Gross and a friend of hers, went
to John Doe's fraternity house. Gross was given alcoholic drinks to drink by John Doe.
At one point during the night, and the next
day, Gross could only recollect flashes of the evening.
The next day, John Doe informed Gross that they had
engaged in sexual intercourse one time at the fraternity
house, one time in her dormitory room at Case Hall, and
one time in his dormitory room in Case Hall.
Gross had little to no recollection of engaging
in sexual intercourse with John Doe.
Gross officially reported her assault to the
MSU Office of Inclusion on February 12, 2014, after
John Doe had been disciplined by MSU for sexually assaulting Plaintiff Kollaritsch, and after John Doe,
based on information and belief, sexually assaulted another female student in the ROTC program.

105a
Upon reporting her assault, Gross was told by
Garcia-Williams that her investigation would be completed in ninety days.
Gross e-mailed Garcia-Williams multiple
times for status updates regarding her investigation.
Garcia-Williams almost never responded immediately,
often times waiting a week to respond.
In fact, Gross' investigation was not completed until October 14, 2014, over eight months after
Gross made her official complaint. The report concluded
that John Doe had sexually assaulted Gross.
On November 13, 2014, Gross e-mailed MSU
President Simon to express her concerns with the way
that the Office of Inclusion had handled her investigation.
Throughout the investigative process, John
Doe was allowed to remain on campus, unrestricted.
On January 28, 2015, over thiee months after
the investigation concluded, and almost a year after her
initial report, a disciplinary hearing was held. Gross
was told that the only way to get communications directly from MSU regarding the hearing was to attend
the hearing herself. Otherwise, she would have to re,
ceive communications through Garcia-Williams.
Though she did not want to attend the hearing, given
Garcia-Williams' untimeliness in communicating with Gro8s and the excessive time it took for the investigation to actually conclude, Gross decided to attend so as
to be able to receive communications directly.

106a

On February 3, 2015, a sanction of expulsion
was levied on John Doe.
On February 10, 2015, John Doe appealed the
sanction.
On March 2, 2015, MSU's appellate board denied John Doe's appeal and upheld the sanction.
On March 16, 2015, John Doe submitted a
second appeal.
On March 24, 2015, over thirteen months after Gross' initial report, Maybank informed Gross that
she had decided to disregard the investigation completed by MSU, and hire the law firm of Warner Norcross & Judd LLP to conduct a brand new investigation.
Nowhere in MSU's Student Life Handbook or MSU's
Relationship Violence & Sexual Misconduct Policy was
there authority for Maybank to order a brand new investigation, conducted by an independent law firm.
Gross was given no information regarding the
parameters of the new investigation, how it would be
conducted, or any timelines regarding its completion.
During Gross' interview with the lawyers
from Warner Norcross & Judd LLP, Gross requested
that her attorney and her MSU advocate, Murgittroyd
be present. The lawyers allowed Gross' attorney to be
present but not Murgittroyd. Murgittroyd then called
someone at Defendant Regents directly, who told the
lawyers to allow Murgittroyd to remain in the room
during Gross' interview.
On May 13, 2015, Gross received the findings
of the new investigation. The new investigation found

107a

that John Doe 1 and his witnesses were not credible.
Nevertheless, the report concluded that Gross and John
Doe had engaged in sexual relations that night, but
they could not find that the relations were "non-consensual."
On May 20, 2015, Gross appealed these findings.
On June 12, 2015, Gross' appeal was denied.
Throughout the pendency of the entire investigatory, adjudicatory and appellate process, John Doe
was allowed to remain on campus, where Gross could
have encountered him at any time. Based on information and belief, John Doe was also allowed to remain
as a member in good standing of both ROTC and his
fraternity.
At least one professor initially refused to provide academic accommodations to Gross, despite her being registered with the Resource Center for Persons
with Disabilities ("RCPD"). Gross was forced to contact
her sexual assault counselor, who then contacted a representative from the RCPD to help resolve the issue.
Defendant's and MSU's actions and inactions
in response to Gross' report of sexual assault, subjected
her to additional harassment and created a sexually
hostile environment for Gross on campus. _
The mere presence of John Doe on campus,
after Gross made her report to MSU, and after -Gross
learned that John Doe had been found by MSU to have
sexually assaulted Plaintiff Kollaritsch, also created a

108a

hostile environment for Gross and made her vulnerable
to further harassment.
165. As a result of Defendant's and MSU's actions
and inactions in response to Gross' report of sexual assault, Gross was deprived of several educational opportunities and/or benefits, including but not limited to:
Being forced to register with the RCPD due to
her inability to maintain her academic schedule;
Leaving multiple class sessions in tears due
to the stress of the process;
Falling asleep in class due to the sleep deprivation caused by the stress of the process;
Dropping a class because one of John Doe's
friends was on the same bus route at the same
time as Gross needed to be to get to that class;
Avoidance of all social activities on campus,
or sponsored by, or related to MSU;
Withdrawing participation in extra-curricular activities, including various theatre projects; and
The need to seek multiple academic accommodations from professors.

FIRST CAUSE OF ACTION
DISCRIMINATION ON THE BASIS OF GENDER
IN VIOLATION OF 20 U.S.C. 1681

109a
(TITLE IX)
(ALL PLAINTIFFS AGAINST DEFENDANT
TRUSTEES)
Plaintiffs incorporate all paragraphs of this
Complaint as if fully set forth herein.
The acts, and failures to act, perpetrated
against Plaintiffs amounted to unlawful sexual harassment and discrimination on the basis of gender. One or
more administrators or officials of MSU, with authority
to take corrective action on Plaintiffs' behalf, had actual
notice of said discrimination and failed to adequately
respond, in violation of their own policies. Those failures amounted to deliberate indifference toward the
unlawful sexual conduct that had occurred, was occurring, or was likely to occur.
Additionally, and/or in the alternative, Defendant Trustees failed to enact and/or disseminate
and/or implement proper or adequate policies to discover, prohibit or remedy the kind of discrimination
that Plaintiffs suffered. This failure included, without
limitation, non-existent or inadequate customs, policies
or procedures for the recognition, reporting, investigation and correction of unlawful discrimination. Those
failures amounted to deliberate indifference toward the
unlawful sexual conduct that had occurred, was occurring, or was likely to occur.
Defendant Trustees acted with deliberate indifference in deviating significantly from the standard
of care outlined by the DOE in the Dear Colleague Letter of 2011.

110a
As a result of Defendant Trustees' deliberate
indifference, Plaintiffs suffered loss of educational opportunities and/or benefits and have and will continue
to incur attorney fees and costs of litigation.
SECOND CAUSE OF ACTION
VIOLATION OF CIVIL RIGHTS UNDER
42 U.S.C. §1983
(ALL PLAINTIFFS AGAINST DEFENDANT
TRUSTEES, DEFENDANT MAYBANK, DEFENDANT SIMON, DEFENDANT YOUATT AND DEFENDANT GARCIA-WILLIAMS)
Plaintiffs incorporate all paragraphs of this
Complaint as if fully set forth herein.
Plaintiffs, as female university students,
were members of a protected class under the Equal Protection Clause of the Fourteenth Amendment to the
United States Constitution. Plaintiffs also enjoyed the
constitutionally protected Due Process right to be free
from the invasion of bodily integrity through sexual molestation, abuse, assault or rape. The various acts as alleged herein amounted to a violation of these clearly established constitutionally protected rights, of which
reasonable persons in the defendants' position should
have known. Defendants Maybank and Simon had a
duty to prevent student-on-student sexual molestation,
abuse, assault and rape, said duty arising under the
above-referenced constitutional rights and also under
clearly established rights against discrimination pursuant to Title IX. By failing to prevent John Doe's, John
Doe 2's, and John Doe 3's aforementioned molestations,
abuse, assaults and rapes upon Plaintiffs, and/or by responding to known reports of John Doe's, John Doe 2's

111a
and John Doe 3's sexually inappropriate behavior with
female students, including Plaintiffs, in a manner that
was so clearly unreasonable as to amount to deliberate
indifference, Defendants Maybank and Simon are liable to Plaintiffs, pursuant to federal law 42 U.S.C.
§1983.
173. Defendant Trustees, Maybank, Simon,
Youatt, and Garcia-Williams are also liable to Plaintiffs
under 42 U.S.C. §1983 for the following:
Maintaining customs, policies and/or procedures of inadequate and/or non-existent monitoring and/or investigation of John Doe, John
Doe 2 and John Doe 3, so as to amount to deliberate indifference as to known or obvious
consequences of John Doe's, John Doe 2's, and
John Doe 3's behavior, up to and including violations of the aforementioned equal protection and due process rights, and unlawful discrimination under Title IX; and
Failing to adequately train administrators,
employees and others in a position to discover, report, investigate or prevent the acts
complained of herein, which amounted to the
above referenced violations of constitutional
rights and/or federal law.

THIRD CAUSE OF ACTION
ELCRA (SEX DISCRIMINATION)

112a
(ALL PLAINTIFFS AGAINST DEFENDANT
TRUSTEES)
Plaintiffs incorporate all paragraphs of this
Complaint as if fully set forth herein.
Plaintiffs are members of a protected class
pursuant to the Constitution of the State of Michigan
and the ELCRA, MCL 37.2101 et seq. and MCL
37.2301.
The facilities operated by the Defendant
Trustees were and are an educational institution under
the ELCRA, MCL 37.2401 et seq. and MCL 37.2301.
Defendant Trustees' policies and practices,
including failure to properly warn, train and/or educate
its students regarding the prevention of sexual harassment and/or assault, and the failure to properly investigate reports of sexual harassment and assault have a
disparate impact on Plaintiffs as females by subjecting
them to increased levels of sexual abuse, assault and
other violence on campus in comparison to male students and by subjecting them to increased levels of emotional distress and other harm by virtue of Defendants'
failures to promptly and appropriately address complaints of sexual assault.
Defendant Trustees' acts and omissions
based upon Plaintiffs' gender have resulted in harm to
Plaintiffs including physical and emotional harm, and
Plaintiffs being denied privileges and opportunities
that should be available to MSU students in violation
of MCL 37.2103 et seq.; MCL 37.2701(a)(f).
FOURTH CAUSE OF ACTION

113a
NEGLIGENCE
(PLAINTIFF GROSS AGAINST FRATERNITY
DEFENDANTS)
Plaintiffs incorporate all paragraphs of this
Complaint as if fully set forth herein.
Defendant Kappa Sigma and Defendant
Delta Psi had a duty to protect Plaintiff Gross as an invitee to Kappa Sigma's local MSU chapter Defendant
Delta Psi. This created a special relationship between
Defendants Kappa Sigma and Delta Psi with Plaintiff
Gross who was temporarily entrusted to Defendants
Kappa Sigma's and Delta Psi's care. Defendant Kappa
Sigma and Defendant Delta Psi voluntarily accepted
the entrusted care of Plaintiff Gross. As such, Defendant Kappa Sigma and Defendant Delta Psi owed Plaintiff Gross a duty of care.
Defendant Kappa Sigma, by and through its
agents, including Defendant Delta Psi, and its servants
and employees, knew or reasonably should have known
of John Doe l's dangerous and exploitive propensities.
It was foreseeable that if Defendants Kappa Sigma and
Delta Psi did not adequately exercise or provide the
duty of care owed to invitees, including but not limited
to Plaintiff Gross, female invitees would be vulnerable
to sexual assault by John Doe 1.
Defendant Kappa Sigma and Defendant
Delta Psi breached their duty of care to Plaintiff Gross
by allowing John Doe 1 to come into contact with Plaintiff Gross without supervision; by failing to adequately
supervise, or retain John Doe 1 who they permitted and
enabled to have access to Plaintiff Gross; by failing to

114a

investigate or otherwise confirm or deny such facts
about John Doe 1; by failing to warn Plaintiff Gross that
John Doe 1 posed a risk of sexually assaulting female
students, including Plaintiff Gross; and/or by holding
out John Doe 1 to Plaintiff Gross as being in good standing and trustworthy; by failing to adhere to the Kappa
Sigma Code of Conduct, by providing alcohol to Plaintiff
Gross in violation of the prohibition of making alcohol
available to anybody that is under the legal drinking
age.
183. As a result of the above-described conduct,
Plaintiff Gross has suffered, and continues to suffer
physical injury, great pain of mind and body, shock,
emotional distress, physical manifestations of emotional distress, embarrassment, loss of self-esteem, disgrace, humiliation, and loss of enjoyment of life; has
suffered and continues to suffer spiritually; was prevented and will continue to be prevented from performing Plaintiff Gross' daily activities and obtaining the
full enjoyment of life; has sustained and will continue
to sustain loss of earnings and earning capacity; and/or
has incurred and will continue to incur expenses for
medical and psychological treatment, therapy, and
counseling.
WHEREFORE, Plaintiffs pray for damages; punitive damages; costs; interest; statutory/civil penalties
according to law; attorneys' fees and costs of litigation,
pursuant to 42 U.S.C. §1988 or other applicable law;
and such other relief as the court deems appropriate
and just.

115a
Dated: February 18, 2016 Respectfully submitted,
THE ZALKIN LAW
FIRM, P.C.
/s/ Alexander S. Zalkin
Alexander S. Zalkin
(280813)
Attorneys for Plaintiffs
12555 High Bluff Drive,
Ste. 301
San Diego, CA 92130
(858) 259-3011
alex@zalkin.com
NACHT, ROUMEL &
SALVATORE, P.C.
Jennifer B. Salvatore
(66640)
Attorneys for Plaintiffs
101 N. Main St.,
Ste. 555
Ann Arbor, MI 48104
(734) 663-7550
jsalvatore@nachtlaw.com

w

116a
DEMAND FOR TRIAL BY JURY
NOW COME Plaintiffs, by and through their counsel, and hereby demand a trial by jury as to all of those
issues so triable as of right.
Dated: February 18, 2016 Respectfully submitted,
THE ZALKIN LAW
FIRM, P.C.
/s/ Alexander S. Zalkin
Alexander S. Zalkin
(280813)
Attorneys for Plaintiffs
12555 High Bluff Drive,
Ste. 301
San Diego CA 92130
(858) 259-3011
alex@zalkin.com
NACHT, ROUMEL &
SALVATORE, P.C.
Jennifer B. Salvatore
(66640)
Attorneys for Plaintiffs
101 N. Main St.,
Ste. 555
Ann Arbor, MI 48104
(734) 663-7550
jsalvatore@nachtlaw.com

